Memorandum from the Office of the Inspector General



September 30, 2011

TVA Board of Directors

FINAL REPORT – EXTERNAL PROJECT 2009-13007-01 – HISTORY, STATUS, AND
ALTERNATIVES: TVA FINANCIAL FLEXIBILITY



Attached is our final report on our review of TVA's financial flexibility. This report is for
information purposes only; therefore, no response is necessary.

Information contained in this report may be subject to public disclosure. Please advise us of
sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss this report, please contact me at (865) 633-7300.




Richard W. Moore
Inspector General
ET 4C-K

NKK:JP
Attachment
cc (Attachment):
      Micheal B. Fussell, WT 9B-K
      Kimberly S. Greene, WT 7B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Tom Kilgore, WT 7B-K
      Emily J. Reynolds, OCP 1L-NST
      John M. Thomas III, MR 6D-C
      Robert B. Wells, WT 9B-K
      Tammy W. Wilson, WT 9C-K
      OIG File No. 2009-13007-01
            SEE
                VALLEY AUT
          ES Efficiency - Eff
                              H                 History, Status,

                                O
             y-           ec
    NN




                                                       and
                                 RI
            m               t
  TE




                                   TY
                           ive
      no




                                    nes
Eco




                                       s
                                                  Alternatives:
OFF




                                        AL
                                        ER
 IC




      O           1985
                                 EN



                                             TVA Financial Flexibility
  E




          FT                        G
               HE               R
                    INSPECTO




                                                               Printed on 100% recycled paper
Office of the Inspector General                                            Special Project


             ACRONYMS AND ABBREVIATIONS
             CEO	 	         Chief Executive Officer
             CY	 	          Calendar Year
             DSC	 	         Debt Service Coverage
             EEDR		         Energy Efficiency and Demand Response
             EPW	 	         Environment and Public Works
             FY	 	          Fiscal Year
             GAO	 	         Government Accountability Office
             GHG	 	         Greenhouse Gas
             IOUs	 	        Investor-Owned Utilities
             OGC	 	         Office of the General Counsel
             OIG	 	         Office of the Inspector General
             OMB	 	         Office of Management and Budget
             SEC	 	         Securities and Exchange Commission
             SPE	 	         Special Purpose Entity
             TFC	 	         Total Financing Cost
             TFOs	 	        Total Financing Obligations
             TVA	 	         Tennessee Valley Authority
             TVARS	         Tennessee Valley Authority Retirement System




Special Project 2009-13007-01                                                            1
Office of the Inspector General                                Special Project


    TABLE OF CONTENTS
       EXECUTIVE SUMMARY							 3

       SUMMARY OBSERVATIONS						 4

       BACKGROUND OBSERVATIONS					 6

       CURRENT STATE OF TVA'S FINANCING				                9

       TVA'S DEBT COMPARISON WITH OTHER UTILITIES		       15

       CHALLENGES FACING TVA						19

       FINANCING STRATEGY ALTERNATIVES				21

       CONCLUSION								28
       	
       OBJECTIVES, SCOPE, AND METHODOLOGY			 29

       TVA'S HISTORY								30

       TVA MANAGEMENT COMMENTS ON THE DRAFT		             45
       REPORT AND TVA OIG RESPONSE


    APPENDICES
        A. TIMELINE OF TVA'S HISTORY: 1933 THROUGH 2010

        B. MEMORANDUM DATED SEPTEMBER 27, 2011, FROM
           KIMBERLY S. GREENE AND JOHN M. THOMAS TO RICHARD W.
           MOORE




Special Project 2009-13007-01                                               2
Office of the Inspector General                                                                           Special Project

                                          EXECUTIVE SUMMARY
Tennessee Valley Authority (TVA) faces a challenging financial situation in the near future.
The company is making significant investments to improve the condition of existing assets,
bring new ones on-line, and comply with environmental regulations. At the same time, TVA is
approaching a statutorily imposed debt ceiling of $30 billion,1 a major impediment to making
needed investments. TVA currently projects that it will have accumulated approximately $27.4
billion in debt and debt-like instruments in fiscal year (FY) 2012. Furthermore, in light of the
nation’s current weak economy and TVA’s increased borrowings being considered part of the
federal deficit, TVA could have difficulties in getting the debt ceiling raised.

Although TVA’s historical mission has not changed, the environment in which TVA does
business has evolved. Among other things, TVA must cope with challenging economic
conditions, increased environmental standards, and the need to modernize its generating
system. In August 2010, the TVA Board of Directors adopted a new strategic vision (Vision)
that will help TVA lead the Tennessee Valley region toward a cleaner and more secure energy
future, relying more on nuclear power and energy efficiency and renewable energy and less on
coal-fired generation. TVA’s new Vision will require financing of some large projects that will
impact TVA’s debt ceiling.

The Office of the Inspector General (OIG) views this impending financial situation as one
that will require careful consideration by TVA management, the Board of Directors, and
congressional and administration officials. TVA is fast approaching a crossroads. The
amount of TVA’s debt and debt-like instruments, the debt ceiling, projected capital needs, and
statements from TVA executives make it clear that TVA may experience issues with its ability
to adequately fund operations, maintenance, and capital projects without increasing the debt
ceiling, raising rates, or choosing among options like the ones we describe in this report.
Although the exact timing of this financial dilemma is unknown, there is little doubt that it
will occur at some point in the near term. Therefore, OIG undertook this review to identify
alternatives for the TVA Board and executives to consider without advocating any particular
option. This report also includes a detailed historical review that is included in the Appendix.

Specifically, our objectives were to assess (1) TVA’s financial flexibility, given its current
statutory debt and other alternate financing, and (2) some of the alternatives that exist for TVA
to meet its future financing needs.

Additionally, it is important to note that in the aftermath of the Kingston coal ash spill of
December 22, 2008, TVA has committed to being a more transparent agency. This OIG
report on financial flexibility presents an opportunity for TVA to continue its commitment to
transparency on issues that affect TVA stakeholders. The TVA Board and TVA management
have encouraged our efforts to present a fact-based report for consideration by TVA’s
stakeholders, and we appreciate their input in this process.

We requested and received comments from TVA management on a draft of this report. These
comments are included in their entirety at Appendix B. In general, management offered
clarification on certain items or provided additional information for emphasis. We made
changes to the final report, based on management’s comments, as appropriate.
1
    Section 15d. (a) of the TVA Act (16 U.S.C. § 831) provides, “[t]he Corporation is authorized to issue and sell bonds,
    notes and other evidences of indebtedness (hereinafter collectively referred to as “bonds”) in an amount not exceeding
    $30,000,000,000 outstanding at any one time to assist in financing its power program and to refund such bonds.”
Special Project 2009-13007-01                                                                                            3
Office of the Inspector General                                                             Special Project

                                  SUMMARY OBSERVATIONS
TVA has a long, rich history filled with change and controversy.  TVA’s many supporters can cite
ample examples of its contributions not only to the Tennessee Valley but also to the nation.  As this
report’s historical survey notes (see the Appendix), TVA has evolved into a self-financing organization
that issues bonds in the financial markets.  As the Tennessee Valley region has grown, so have TVA’s
capital needs.  The current ceiling on its authority to issue bonds, set in 1979, stands at $30 billion.  
When adjusted based on historical Consumer Price Indices, this debt ceiling is equivalent to more
than $90 billion in 2010 dollars.  In other words, since 1979, inflation has reduced the purchasing
power of the debt ceiling by almost two-thirds, to approximately $10 billion in 1979 dollars.  The
following observations are factors to be considered in evaluating the alternative strategies.  These
factors are discussed more fully in the report.

TVA’s Debt Reduction Efforts
TVA has undertaken debt reduction efforts in the past but has made limited progress compared
with its publicly announced goals.  Since 2005, there have been efforts to transform TVA’s business
structure to increase accountability and oversight by changing the TVA Board from three full-time
members to nine part-time members, establishing a Chief Executive Officer position to supervise
its day-to-day activities, and filing financial reports with the Securities and Exchange Commission
(SEC).  In addition, the TVA Board has established a set of financial principles to bring a new level
of discipline to TVA’s decision making and ensure continued financial health.  TVA maintains that the
use of debt is consistent with several financial guiding principles, including the principles that new
debt should be used only to fund new generation investments and that debt should be repaid before
the end of the useful life of the assets, while operating costs and maintenance of the existing power
system should be funded out of revenues.  According to TVA, financing new generation with debt
results in a lower cost to TVA’s current ratepayers and aligns repayment of generation investment
obligations with the consumers who will benefit from those assets.

Current State of TVA’s Financing
TVA’s current total financing obligations (TFOs) include statutory debt, energy prepayments, and
leaseback obligations.  TVA’s statutory debt balance as of September 30, 2010, was $23.4 billion,
with an additional $2.2 billion in energy prepayments and leaseback obligations.  For financial
planning purposes, TVA currently uses an internal borrowing limit of $28 billion in statutory debt
to provide for the unexpected.  TVA regularly reports all of its liabilities, including leases and
prepayments, according to generally accepted accounting principles, in external financial reports
filed with the SEC, and provided to Office of Management and Budget (OMB) and the Congressional
Budget Office.

Challenges Facing TVA
TVA faces many challenges, including an aging fossil fleet, increased environmental regulations, and
a pending pension shortfall. TVA prefers to address these challenges before reaching the $30 billion
cap for statutory debt. As discussed below, one alternative to meet these challenges is to increase the
debt ceiling. However, increasing the debt ceiling above the current $30 billion limit would lead to a
greater amount of debt for TVA. Furthermore, while this could be perceived negatively in the current
weak economy and foster uncertainty about how higher debt levels can be sustained, debt is also
TVA’s lowest cost form of financing.

According to the Office of the General Counsel (OGC), because of federal budgetary principles, TVA’s
expenditure of increased borrowings is presented in the budget as being equivalent to TVA’s receipt

Special Project 2009-13007-01                                                                            4
Office of the Inspector General                                                             Special Project

and expenditure of congressional appropriations and would cause an equal increase in the overall
federal budget deficit that currently exists.  Thus, Congress’ current mission to reduce the federal
deficit, coupled with resistance from those who generally oppose a debt ceiling increase, could be a
constraint to TVA’s success in getting the debt ceiling increased.

TVA’s Debt Comparison With Other Utilities
Although TVA is often compared with investor-owned utilities (IOUs), comparing their debt levels does
not provide much value because of the differences in their operating characteristics.  Specifically, the
TVA Act requires that TVA sell power at the lowest rates feasible, whereas IOUs operate to maximize
shareholder earnings.  In addition, both TVA and IOUs can fund capital projects through raising rates,
issuing debt, or retained earnings, but IOUs can also issue stock.  As a result of these differences,
TVA compares unfavorably with other utilities when focusing on debt alone.  

                                  Financing Strategy Alternatives
TVA currently uses multiple options to finance operations including increasing rates, issuing
debt (subject to ceiling), prepay arrangements for power sales, and other alternative financing
arrangements such as leaseback agreements.  Additionally, TVA makes key decisions to minimize
financing requirements by (1) anticipating business growth, (2) evaluating the necessity of capital
outlays and deferring those decisions when appropriate, (3) maintaining purchase power agreements
to handle peak demand periods, and (4) engaging in a demand reduction program to reduce the need
for new capacity.  TVA periodically considers other financing options including (1) distributor-owned
generation and (2) partnering arrangements.  These options are reviewed to determine whether they
are economically feasible considering how they increase TVA’s risk or how they transfer TVA’s risk
to others.  Other options may exist that are less feasible including issuing securities and seeking
congressional appropriations for federal mandates such as clean air compliance.  These options
are more drastic measures and require congressional approval.  This report includes more detailed
discussions on the various strategies available to TVA.


                                           Conclusions
As previously noted, TVA’s challenges are great with the need for financial flexibility to ensure the TVA
mission of delivering low cost power is achieved.  The current debt ceiling could limit TVA’s financial
flexibility and require TVA to seek higher cost financing options or require significant rate increases
that could adversely affect the economic development of the Tennessee Valley region.  Although TVA
is in the process of evaluating options, TVA’s position is that a financial metric (e.g., something similar
to the debt service coverage (DSC) ratio), rather than a debt ceiling stated in terms of an arbitrary
dollar amount, would provide control of TVA’s borrowing authority that is tied to TVA’s ability to pay
outstanding debt, similar to IOUs, while still providing Congress with oversight and control.

The Inspector General agrees with TVA management in their efforts to maintain maximum financial
flexibility including (1) the adoption of sound financial principles, (2) ensuring multiple options and
strategies are pursued to achieve the most economical approach, and (3) seeking to ensure that debt
remains a viable option in future financing decisions.

TVA should be able to support additional debt to help meet energy demands as long as TVA uses
the debt proceeds to successfully build generating capacity,  the TVA Board maintains its ratemaking
authority, and TVA maintains its service territory and customer base.

Special Project 2009-13007-01                                                                             5
Office of the Inspector General                                                                         Special Project

                                BACKGROUND OBSERVATIONS
TVA’s Debt Reduction Efforts
TVA’s current debt ceiling of $30 billion has not changed since 1979.  Over the years, TVA has
initiated several efforts to reduce its statutory debt and alternative financing obligations.  According to
a Government Accountability Office (GAO) report2  issued in August 2006, TVA’s most recent major
efforts to reduce its TFOs3  are as follows:

    •	 In July 1997, TVA issued a ten-year business plan that included steps to improve its financial
       position.  Two key objectives of this plan were:  “(1) to reduce the cost of power by reducing debt
       and the corresponding financing costs, and (2) to increase financial flexibility by reducing fixed
       costs.”  The plan called for TVA to reduce its debt by half, to about $13.2 billion, over ten years by
       increasing its electricity rates beginning in 1998, reducing certain expenses, and limiting capital
       expenditures.  However, TVA did not meet this goal because it used cash intended for debt
       reduction to cover greater than estimated annual operating costs and capital expenditures.  TVA
       reduced TFOs by only $975 million from 1997 through 2003.

    •	 In 2004, TVA’s Board adopted a new strategic plan for reducing its statutory debt by $3 billion
       to $5 billion.  TVA subsequently expanded this debt reduction effort to also include other
       components of its TFOs, namely obligations related to leasebacks and energy prepayment
       arrangements.  Thus, TVA’s 2007 budget submission set a new goal to reduce TFOs by $7.1
       billion by FY 2015.  This included reducing statutory debt by $6.7 billion and alternative financing
       obligations by $0.4 billion.  At the time, TVA planned to achieve this goal by “increasing revenue,
       controlling the growth of its operating expenses, and limiting capital expenditures.”  TVA projected
       that it would gain additional revenue through an October 2005 rate increase and increased sales
       from growth for the demand for electricity.  According to TVA, a fuel cost adjustment process has
       been put in place to adjust rates more frequently to accommodate fuel cost volatility and avoid
       larger, less frequent adjustment for fuel costs.

      According to the GAO report, TVA planned to reduce its TFOs by $3.4 billion from FY 2004
      through FY 2010.  Based on our review of TVA’s financial statements for that time period, we
      determined that TVA fell short of its FY 2010 TFO reduction goal by $3.1 billion.

Although TVA has not been successful in achieving its debt reduction goals, its debt ceiling has
remained at $30 billion since 1979 and has not been adjusted for inflation since then.4   Within these
constraints, TVA’s business has grown, and environmental spending requirements have increased.  
TVA has continued to add generating capacity to the system, as its customer base has increased.  
According to information provided by TVA personnel, TVA has added 12,212 megawatts of generating
capacity to the system since 1979 at a cost of $14.1 billion.  This additional generating capacity
represents an increase of approximately 55 percent over the generating capacity that was available in
1979.  TVA’s customer base has increased by about 66 percent since 1979.   Finally, TVA has spent
about $5 billion on environmental projects since 1979.




2
     Plans to Reduce Debt While Meeting Demand for Power, GAO-06-810.
3
     As noted below, TVA’s TFOs include statutory debt, energy prepayments, and leaseback obligations.	
4
     By applying the average annual Consumer Price Indices on a cumulative basis for 1980 through 2010, TVA’s $30 billion
     debt ceiling in 1979 dollars is equivalent to more than $90 billion in 2010 dollars.
Special Project 2009-13007-01                                                                                          6
Office of the Inspector General                                                                            Special Project

                      “Since 1979, TVA’s customer base has increased
                      by about 66 percent while increasing generating
                          capacity by approximately 55 percent.”
Corporate Governance and Financial Flexibility
Since 2005, there have been efforts to transform TVA’s business structure to increase accountability
and oversight by (1) changing the TVA Board from three full-time members to nine part-time
members, (2) establishing a Chief Executive Officer position to supervise its day-to-day activities, and
(3) filing financial reports with the SEC.  In addition, according to written testimony5  by TVA’s Chief
Financial Officer to Congress, the TVA Board established a set of financial guiding principles in its
2007 Strategic Plan to bring a new level of discipline to TVA’s decision making and ensure continued
financial health.   These principles, recently updated and endorsed by the Board, call for TVA to use
debt to finance new generation investments.  They are:

    •	   Retire debt over the useful life of assets.
    •	   Only issue new debt for new assets.
    •	   Use regulatory accounting treatment for specific unusual events.
    •	   Increase rates as necessary to fund operational spending.
    •	   Evaluate rate actions to avoid significant rate volatility.
    •	   Implement rate actions to maintain financial flexibility.

                           “TVA’s Board established these guiding
                            principles to ensure TVA’s continued
                                      financial health.”
According to TVA, the next step in its business transformation is to replace TVA’s debt limit with a
financial metric (e.g., something similar to the DSC ratio).  Although TVA is still evaluating options,
TVA’s position is that a financial metric, rather than a debt ceiling stated in terms of an arbitrary
dollar amount, would provide control of TVA’s borrowing authority that is tied to TVA’s ability to pay
outstanding debt, similar to IOUs, while still providing Congress with oversight and control.  

Congressional Oversight
TVA’s jurisdictional committees with primary oversight in the federal government are the Senate
Environment and Public Works Committee and the House of Representatives Transportation and
Infrastructure Committee.  In the Senate, the Environment and Public Works Committee’s Clean
Air and Nuclear Safety Subcommittee has jurisdiction, and in the House, the Transportation and
Infrastructure Subcommittee on Water Resources and Environment has jurisdiction.  In addition, OMB
reviews TVA’s budget and operations throughout the year, and GAO performs periodic reviews of
various aspects of TVA at the request of Congress.6

In March 1994, the Subcommittee on Investigations and Oversight of the House Committee on Public
Works and Transportation held a hearing on TVA that raised concerns about its nuclear program
and growth of its debt toward the $30 billion debt ceiling.  At the time of the hearing, TVA was seven
5
     Written testimony of John Madison Thomas III, Chief Financial Officer, Tennessee Valley Authority, as submitted to the
     U.S. House Committee on Transportation and Infrastructure Subcommittee on Water Resources and Environment,
     March 8, 2011.
6
     TVA’s OIG provides semiannual reports to Congress concerning audits, inspections, and investigations of TVA
     operations and personnel.
Special Project 2009-13007-01                                                                                                 7
Office of the Inspector General                                                            Special Project

years into a ten-year period of no base rate increases.  At the request of several Congress members,
GAO examined the implications for TVA and possibly the federal government of TVA’s financial
condition, and in August 1995, it issued a report about TVA’s financial situation, GAO/AIMD/RCED-
95-134, Financial Problems Raise Questions about Long-Term Viability.  GAO found that TVA had
more financing costs and deferred assets than its competitors, which gave it little flexibility to be
competitive.  

As discussed above, TVA’s debt ceiling was increased in 1979 by $15 billion to $30 billion primarily
for the purpose of constructing nuclear generation.  But TVA subsequently abandoned many of the
nuclear projects that the increase would have financed because of lower-than-anticipated growth.  In
the years following this debt ceiling increase, TVA’s financial condition worsened, largely as the result
of construction delays, cost overruns, and operational shutdowns in its nuclear program.  As shown in
Table 2, TVA’s debt and debt-like instruments increased to a peak of more than $27 billion in FY 1996
.
In their response to our draft, TVA management stated that it is important to highlight TVA’s
repayment of its original power system investment, as well as the additional “return” payments
made by TVA on the remaining balance of that investment. Specifically, TVA stated that of the $1
billion amount of investment that TVA is required to repay, only $70 million remained unpaid as of
September 30, 2010. TVA management further provided that by 2014 TVA will have paid more than
$3.6 billion to the U.S. Treasury and will continue making payments on the remaining $258 million
power program investment.




Special Project 2009-13007-01                                                                           8
Office of the Inspector General                                                                Special Project

                        CURRENT STATE OF TVA’S FINANCING

TVA’s Total Financing Obligations
Currently, TVA has three categories of debt and debt-like obligations, collectively referred to as TFOs:  
(1) statutory debt, (2) energy prepayments, and (3) leaseback obligations.  As Table 1 shows, TVA’s
statutory debt balance has decreased by nearly $3.5 billion since September 30, 1997 .  However, to
fund certain capital requirements, TVA implemented an energy prepayment program for its distributors
in FY 2003 and began entering into lease-leaseback transactions in FY 2000.  Energy prepayments
and leaseback obligations are referred to as alternative financing arrangements.

                       “TVA’s total financing obligations have
                    declined by about $1.3 billion since 1997 and
                    statutory debt declined by $3.5 billion during
                                 that same period.”
                          Table 1. TVA’s total financing obligations ($ in billions)

                                                    Leaseback          Energy          Total Financing
                 Date             Statutory Debt
                                                    Obligations     Prepayments          Obligations

         September 30, 2010           $23.4             $1.4            $0.8               $25.6
         September 30, 2009           $22.6             $1.4            $0.9               $24.9
         September 30, 2008           $22.6             $1.4            $1.0               $25.0
         September 30, 2007           $22.6             $1.1            $1.1               $24.8
         September 30, 2006           $22.9             $1.1            $1.2               $25.2
         September 30, 2005           $22.9             $1.1            $1.4               $25.4
         September 30, 2004           $23.3             $1.2            $1.4               $25.9
         September 30, 2003           $24.6             $1.2            $0.1               $25.9
         September 30, 2002           $24.8             $0.6             -                 $25.4
         September 30, 2001           $24.8             $0.3             -                 $25.1
         September 30, 2000           $25.4             $0.3             -                 $25.7
         September 30, 1999           $25.9              -               -                 $25.9
         September 30, 1998           $26.3              -               -                 $26.3
         September 30, 1997           $26.9              -               -                 $26.9



Statutory Debt

Per TVA, TVA’s statutory debt includes power bonds and discount notes issued pursuant to Section
15d of the TVA Act, which are subject to the current $30 billion ceiling.  According to TVA’s FY 2010
Form 10-K filed with the SEC:

     [TVA] Power bonds have maturities of between one and 50 years, and discount notes have
     maturities of less than one year. Power bonds and discount notes have a first priority and
     equal claim of payment out of net power proceeds. Net power proceeds are defined as the

Special Project 2009-13007-01                                                                                9
Office of the Inspector General                                                           Special Project

    remainder of TVA’s gross power revenues after deducting the costs of operating, maintaining,
    and administering its power properties and payments to states and counties in lieu of taxes, but
    before deducting depreciation accruals or other charges representing the amortization of capital
    expenditures, plus the net proceeds from the sale or other disposition of any power facility or
    interest therein.  

As of September 30, 2010, TVA’s statutory debt totaled $23.4 billion.  Table 2 shows the effects of
inflation on the $30 billion debt ceiling from 1979 through 2010.   TVA forecasts a statutory debt
balance of $24.3 billion and an alternative financing balance of $2 billion by September 30, 2011.


                    “The 1979 $30 billion debt ceiling, if adjusted
                      for inflation, would be $90 billion in 2010
                     dollars. The purchasing power of the 1979
                     $30 billion debt ceiling is only $10 billion.”
                      Table 2. TVA’s 1979 Debt Ceiling, CPI-Adjusted (in Millions)

        $100,000



         $90,000           CPI-Adjusted Debt Ceiling (f rom $30 Billion)                      $90,000


                           Debt & Obligations (Actual)
         $80,000


                           Actual Statutory Debt Ceiling
         $70,000



         $60,000



         $50,000



         $40,000


                                                                                              $30,000
         $30,000
                                                                                              $26,000

         $20,000



         $10,000



             $-




The $30 billion debt ceiling in 1979 dollars is equivalent to more than $90 billion in 2010 dollars when
the average annual Consumer Price Indices from 1980 through 2010 are applied on a cumulative
basis.  In other words, the debt ceiling would have to be $90 billion in 2010 to have the same
purchasing power as in 1979.   TVA actually has a more restrictive debt ceiling today than it did in
1979 due to the effects of inflation.  In 2010 dollars, the purchasing power of 1979’s $30 billion debt
ceiling is only $10 billion.


Special Project 2009-13007-01                                                                           10
Office of the Inspector General                                                                                                                           Special Project

As noted above, appropriations for TVA’s power program ended in 1959 when TVA obtained self-
financing status for that program, and appropriations for TVA’s stewardship, economic development,
and multipurpose activities (nonpower programs) ended in 1999.  Since 1999, TVA has funded
virtually all of its operations entirely from the sale of electricity and power system financings, which
primarily consists of the sale of debt securities.

Debt Ratio

Debt ratio is a measure of the proportion of assets financed by debt.  We calculated TVA’s debt
ratio7  for 1979 through 2010.  The lowest debt ratio was 0.75 in 1979, and the highest debt ratio
was 1.09 in 1994.  TVA’s debt ratio basically has declined since the 1994 peak—the FY 2010
debt ratio being 0.79, and the average for the past five years being 0.84.  Thus, TVA is financing a
greater percentage of performing assets with internally generated funds than with debt, in contrast
to the 1990s, as shown in Table 3.
                                                   Table 3. TVA’s Debt Ratio, 1979 - 2010


                                                                         TVA Debt Ratio
                                                                           1979-2010
                                    1.2
                                    1.1
                                     1
                                    0.9
                                    0.8
                                    0.7
                       Debt Ratio




                                    0.6
                                    0.5
                                    0.4
                                    0.3
                                    0.2
                                    0.1
                                     0
                                          1980

                                                 1982

                                                        1984

                                                               1986

                                                                      1988

                                                                             1990

                                                                                    1992

                                                                                           1994

                                                                                                  1996

                                                                                                         1998

                                                                                                                2000

                                                                                                                       2002

                                                                                                                              2004

                                                                                                                                     2006

                                                                                                                                            2008

                                                                                                                                                   2010




Energy Prepayments

On October 8, 2002, TVA began its Discounted Energy Units program.  This power discount
program allows TVA’s power distributors to prepay a portion of the price of firm power they plan to
purchase from TVA in the future.  In return, the distributors receive a discount on a specific quantity
of the future power they purchase.  The quantity of power varies based on an implied interest rate
associated with TVA’s estimated cost of borrowing for a given period.  As of September 30, 2010,
7
       We calculated the debt ratio using the following formula:  (Short-Term Debt + Treasury Notes + Long Term Debt +
       Leaseback Obligations + Energy Prepayment Obligations) divided by (Total Assets – Deferred Nuclear Generating
       Units – Other Regulatory Assets – Debt Issue/Reacquisition Costs – Other Deferred Charges – Unamortized Cost of
       Canceled Nuclear Generating Assets).
Special Project 2009-13007-01                                                                                                                                          11
Office of the Inspector General                                                               Special Project

TVA’s energy prepayment obligation totaled approximately $822 million and included 36 distributor
participants.  According to its September 30, 2010, financial statements, TVA has not offered the
Discounted Energy Units program since the end of 2004.  

Leaseback Obligations

A lease-leaseback is a financial transaction where one party (original lessor) leases an asset to
another party and simultaneously leases it back from that other party for a specified term.  Normally,
the original lessor receives cash proceeds from the other party upfront and pays the other party
lease payments.  TVA’s lease payments under its leaseback transactions are considered costs of
operating, maintaining, and administering its power properties and, as such, those payments have
priority over TVA’s payments on statutory debt.

Since FY 2000, TVA has received approximately $1.334 billion through lease-leaseback transactions:

     •	 According to a GAO report,8  from 2000 through 2003, TVA received approximately $945 million
        in proceeds by entering into leaseback transactions for 24 new peaking combustion turbine
        units.  The report states:

             [U]nder these arrangements, TVA agreed to lease the assets to private equity investors
             for a 50-year period and immediately received the full amount, approximately $945 million,
             due under the 50-year leases.  The equity investors agreed to lease the assets back
             to TVA for a period of 20 years.  Over the 20-year leaseback period, TVA is required to
             make semiannual lease payments...  At the end of the 20-year leaseback period, TVA has
             the option of purchasing the equity investor’s remaining interest in the assets over the
             remaining 30-year period of the 50-year lease. If, after 20 years, TVA elects to exercise
             the purchase option, it would pay the fair market value of the assets, subject to certain
             maximum amounts set in the lease-leaseback arrangements.  Once TVA provides notice
             that it intends to purchase the equity investor’s interest in the assets, negotiations between
             TVA and the equity investor will commence to determine the fair market value of the assets.  
             If they cannot agree on a fair market value within 90 days of TVA’s notice, the fair market
             value will be determined by an independent appraisal procedure.

        Although these arrangements allowed TVA to retain legal title to the assets, TVA also
        relinquished enough interest in those assets so that the equity investors were entitled to certain
        tax benefits that were not available to TVA.  The GAO report further provided that TVA officials
        “decided to use this type of financing primarily because it lowered their financing costs.”  

     •	 In 2003, TVA also received approximately $389 million in proceeds by entering into a leaseback
        transaction for qualified technological equipment and software.

Conflicting Views on Lease-Leasebacks and TVA’s Statutory Debt

In the past, there have been conflicting views as to whether TVA’s lease-leaseback obligations
should be treated as “bonds, notes and other evidences of indebtedness” for purposes of TVA’s
statutory debt ceiling.  According to GAO’s June 2003 report, Information on Lease-Leaseback
and Other Financing Arrangements, GAO-03-784, OMB concluded that TVA’s lease-leaseback
arrangements were “equivalent to the purchase of assets financed by the issuance of agency
debt because:  (1) TVA retains legal ownership of the assets, (2) the present value of TVA’s lease
8
      Information on Lease-Leaseback and Other Financing Arrangements, GAO-03-784.	
Special Project 2009-13007-01                                                                             12
Office of the Inspector General                                                                              Special Project

payments is very high compared to the fair market value of the assets, and (3) TVA controls use of
the assets.”  Notwithstanding, the report also stated that “[OMB is] also of the opinion that the TVA Act
is unclear regarding whether TVA’s lease-leaseback arrangements should be counted against the $30
billion bond ceiling established by Section 15d of the TVA Act.”  

According to TVA’s OGC and outside counsel, the language and structure of Section 15d. and its
legislative history provide a basis for concluding that these leasebacks and TVA’s obligation to pay
rent under them should not be considered in determining TVA’s amount of outstanding bonds under
Section 15d. (a) for the following reasons:

     •	 While Congress provided two methods9  to finance TVA’s power system, the Act only placed a
        limitation on the amount of “bonds” TVA can have outstanding at any one time.

     •	 References to bonds in Section 15d. make sense when applied to traditional financial
        instruments such as TVA bonds.  However, the same references make no sense, or only tortured
        sense, when applied to leases.

     •	 In the three instances when the TVA Act refers to both bonds and leases in the same provision, it
        is clear that Congress was drawing a distinction between the two.

     •	 Testimonies during debt ceiling hearings from various United States Senators have demonstrated
        awareness that while there is a limitation on the amount of bonds that may be issued, there
        is no such limitation on lease-purchases.  Thus, the OGC would argue that “Congress clearly
        recognized that leases would not count towards the bond ceiling and took no action to change
        the language of Section 15d.”

In addition, OGC stated that the lease-leaseback transactions do not create “indebtedness,” as
that term is used within Section 15d. of the Act because no creditor-debtor relationship is formed in
connection therewith.  

Because of these conflicting stances, in June 2003, GAO recommended that “Congress may want
to consider amending the TVA Act to clarify whether the debt cap should include alternative sources
of financing (such as lease-leaseback arrangements) that have the same impact on TVA’s financial
condition and competitive position as traditional debt financing.”  In its 2003 report about TVA’s lease-
leasebacks, GAO stated:

        [B]ased on our analysis of the law and its legislative history, we conclude that the current law
        does not clearly and unambiguously address whether the amount of the lease-leaseback
        arrangements should be counted against the debt cap. However, there is support for the view
        that bonds are treated as separate means of financing the expansion of facilities from leases
        and lease-purchase agreements. There is also support for the view that, although bonds are
        covered by the ceiling in Section 15d (a) of the TVA Act, leases and lease-purchase agreements
        are not. Finally, there is support for the view that lease-leaseback arrangements are sufficiently
        analogous to lease and lease-purchase agreements to support the conclusion that they are not
        bonds for the purpose of Section 15d (a) of the TVA Act. Therefore, TVA’s decision that its lease-
        leaseback arrangements should not be treated as debt for purposes of the debt cap in Section
        15d (a) of the TVA Act is not unreasonable, even though these arrangements have the same
        impact on TVA’s financial condition and future competitiveness as traditional debt.
9
       Section 15d. (a) authorizes TVA to issue and sell bonds, and Section 15d. (g) permits the use of lease, lease-purchase
       agreements, and power purchase agreements.
Special Project 2009-13007-01                                                                                              13
Office of the Inspector General                                                                                Special Project

According to TVA:

         [D]uring 2004, OMB prepared draft legislation that would expand the type of evidences of
         indebtedness that count toward TVA’s $30 billion debt ceiling. Under this legislation, long-term
         obligations that finance capital assets would count toward the debt ceiling, including lease-
         leaseback arrangements and power prepayment agreements whose original term exceeded one
         year.

TVA reports all of its liabilities, including statutory debt, leases, and prepayments, according to
generally accepted accounting principles, in external financial reports filed with the SEC.  

Regarding the historical uncertainty of the proper classification of lease-leasebacks, TVA
management stated that the Appendix of the Budget of the United States Government, Fiscal Year
2012 (Budget), excludes alternative financing, such as lease-leasebacks and energy prepayments,
from being part of TVA’s statutory debt balance. Specifically, the Budget states: “At the beginning of
2011, TVA currently has $2.2 billion in debt-like obligations that are not counted against its statutory
debt cap.”

Ramifications of Issuing Debt Above the Debt Ceiling
TVA would face significant legal risks if it issued bonds that caused total debt to rise above the debt
ceiling.  Such bonds would likely be invalid because TVA does not have the authority to issue bonds
beyond the debt ceiling.  Compensation for any damages incurred by bondholders, ratepayers, or
other stakeholders might be sought from TVA and possibly also from the TVA officials who caused
the bonds to be issued.  For this reason, according to TVA, it has a variety of safeguards/controls in
place to ensure TVA does not exceed the debt ceiling.  Exceeding the debt ceiling would not violate a
specific bond covenant, but the Basic Tennessee Valley Authority Power Bond Resolution constitutes
a contract between TVA and bondholders that may imply an obligation to comply with the law.10   This
implied obligation would be violated if TVA has more than $30 billion in outstanding bonds.  
According to the Bond Resolution, if TVA is given written notice of the default and fails to cure the
default after a reasonable opportunity to do so, then a lawsuit may be brought by the holders of at
least 5 percent of the aggregate principal amount of the outstanding bonds.  Such a lawsuit can seek
to (1) enforce TVA bond covenants and agreements, (2) enjoin any acts that would violate the rights
of bondholders, and (3) protect and enforce the rights of bondholders.  A court could prevent TVA
from issuing bonds in excess of the debt ceiling; however, once the amount of outstanding bonds
dipped below $30 billion, TVA could again issue bonds up to the debt ceiling.

The Bond Resolution does not provide for an acceleration of TVA’s obligation to repay principal and
interest if the debt ceiling is exceeded.  Whether debt in excess of the ceiling constitutes a default
under TVA’s lease and leaseback agreements is less clear.  Such a situation would be evaluated
according to the circumstances of the default and the terms of particular lease and leaseback
agreements.

In its response to our draft report, TVA management provided further information about the internal
and external controls in place to ensure that TVA’s bond issues are within its debt ceiling limit.
Specifically, TVA stated that these controls include obtaining legal opinions from outside counsel and
TVA’s OGC on the validity of the debt, as well as approval from the U.S. Treasury.


10
       Bond covenants specify the rights of bondholders and the duties of issuers, such as actions that the issuer is obligated
       to perform or is prohibited from performing. 	
Special Project 2009-13007-01                                                                                                14
Office of the Inspector General                                                                                  Special Project

                     TVA’S DEBT COMPARISON WITH OTHER UTILITIES
Because TVA is an electricity wholesaler, it is often compared with IOUs.  However, these
comparisons are not particularly useful in determining if TVA’s debt level is too large, too small,
or adequate because the two types of organizations have different missions and are capitalized
differently.  

                             “Although TVA is often compared to IOUs,
                               these comparisons are not very useful
                            because of differing missions and financing
                                           mechanisms.”
In fact, TVA’s external auditor does not compare TVA ratios with industry average ratios because
TVA’s operating characteristics are so different.  The primary differences affecting debt levels of TVA
and IOUs are as follows:

      •	 As stated in the TVA Act, Section 15d. (f), TVA’s goal is to sell power “at rates as low as are
         feasible.”  IOUs are operated in a manner to try to maximize shareholder value.

      •	 TVA sources of capital to fund projects are limited to raising rates, issuing debt, and/or internally
         generated funds (retained earnings).  IOUs can issue preferred and common stock in addition to
         these sources of capital.

Comparing TVA and IOU debt levels is difficult because of their differing financing mechanisms,
but the following tables provide some information about the debt level and assets of TVA and five
IOUs.  For example, Table 4 compares the total debt of the entity with the total assets of the entity
less assets classified as deferred charges/other.  As expected, TVA’s debt level compared with these
assets was greater than that of the five IOUs.11
11
                           Table 4. Debt to Total Assets Less Deferred Charges and Other


                                     Debt to Total Assets Less Deferred
                                        Charges and Other - 2010
                           0.9000
                           0.8000
                           0.7000
                           0.6000
                           0.5000
                           0.4000
                           0.3000
                           0.2000
                           0.1000
                           0.0000
                                        TVA      Southern      Duke     Dominion       AEP       Ameren


11
       We selected five large utilities with service territories that border states that have TVA service.  TVA has compared its
       performance to these same five utilities. 	

Special Project 2009-13007-01                                                                                                      15
Office of the Inspector General                                                                        Special Project


Table 5 compares the amount of generating capacity of the utility with the amount of debt used to
build/buy the capacity.  TVA had a better ratio of generating capacity to debt level than three of the
five utilities.

               Table 5. Generating Capacity Divided by TFOs Plus Preferred and Common Stock


                                  Generating Capacity divided by TFOs +
                                   Preferred and Common Stock -2010
                         1.6000
                         1.4000
                         1.2000
                         1.0000
                         0.8000
                         0.6000
                         0.4000
                         0.2000
                         0.0000
                                      TVA       Southern      Duke     Dominion         AEP   Ameren




Table 6 compares TVA’s DSC ratio to the other five utilities and shows that TVA had the lowest ratio
among all six utilities.  When appropriate, the DSC ratio provides a general measure of the amount
of debt that can be supported by a company’s cash flows for a specific period.  The higher the ratio,
the more likely a company will be able to service its debt obligations in a timely manner.  

However, according to TVA, because most large utilities, including TVA, have bullet maturity debt,12
the DSC ratio does not, at least for large utilities, provide a meaningful measure of a company’s abil-
ity to service its debt, at least when analyzing the ratio on a year-to-year basis.  Because the amount
of debt repayment is a major component used to calculate this ratio, the ratio can be relatively large
in one year and significantly smaller in another year, depending on the maturity dates of its debt
obligations.  

In FY 2010, for example, TVA calculated its DSC ratio at 2.15, more than double the ratio of 1.07
calculated in FY 2009. This change resulted primarily from long-term debt maturities of $8 million
in FY 2010 and more than $2 billion in FY 2009, even though the total amount of outstanding debt
remained stable. Therefore, TVA personnel told OIG that rating agencies generally do not calculate
DSC ratios for large investor-owned utilities, but instead use the interest coverage ratio (see Table 7)
or other related metrics. However, according to TVA, when rating agencies evaluate utilities that, like
TVA, have a not-for-profit financial structure such as cooperative generation and transmission orga-
nizations, they typically use a DSC ratio.




12
       Debt with a single payment for an entire loan amount that is paid at maturity.
Special Project 2009-13007-01                                                                                      16
Office of the Inspector General                                                                                                                    Special Project


                                                                                           Table 6. Debt Service Coverage Ratio

                                                                                    3.50




                           (Net Operating Income + Amortization and
                            Depreciation) Divided by Long-Term Debt
                             Principal and Interest Payments - 2010
                                                                                    3.00

                                                                                    2.50

                                                                                    2.00

                                                                                    1.50

                                                                                    1.00

                                                                                    0.50

                                                                                      -
                                                                                              TVA     Southern    Duke   Dominion   AEP   Ameren



The times interest earned ratio (also known as the interest coverage ratio) gauges a company’s ability
to pay interest on its debt.  We calculated this ratio among all six utilities and found that TVA’s ratio13
is lower than the other five utilities.  According to one source, the lower the ratio, the more likely the
company is burdened with debt expense.  Furthermore, when a company’s times interest earned ratio
is 1.5 or lower, its ability to meet interest expenses may be questionable; a ratio below 1 indicates
that the company is not generating enough revenue to satisfy interest expenses.  TVA’s times interest
earned ratio of 2.65 for FY 2010 was the lowest among all six utilities.  However, as noted above,
TVA’s ratio is lower than other utilities because of its unique capital structure and different operating
model.
                                     Table 7. Times Interest Earned Ratio

                                                                              8.00
                          Earnings Before Interest and Income Taxes Divided




                                                                              7.00


                                                                              6.00
                                      by Interest Expense - 2010




                                                                              5.00


                                                                              4.00


                                                                              3.00


                                                                              2.00


                                                                              1.00


                                                                                -
                                                                                            TVA     Southern     Duke    Dominion   AEP   Ameren



13
       To calculate this ratio, we used TVA’s Operating Income plus Other Income in place of Earnings Before Interest and
       Income Taxes, since TVA does not pay state or federal income taxes.  However, in its own calculation, TVA used Cash
       From Operating Activities (on the Statement of Cash Flows) in place of Earnings Before Interest and Income Taxes.  
       However, the difference resulting from each method was not material.

Special Project 2009-13007-01                                                                                                                                  17
Office of the Inspector General                                                                                Special Project

The total financing cost per revenue dollar (TFC) ratio illustrates how much of each dollar in revenue
is used to pay financing costs.  The TFC is calculated by summing the interest expense and dividends
paid and dividing the sum by annual revenue.  The smaller the ratio, the less amount of each revenue
dollar consumed by financing costs.  As shown in Table 8, TVA had the second lowest TFC for 2010
compared to the other five utilities.  TVA’s TFC ratio was 0.1190, meaning about 12 cents of every
dollar generated in revenue was used for financing costs.  The remaining TFC ratios ranged from a
low of 0.1143 to a high of 0.1488.  

TVA having a lower TFC is expected because TVA is a government corporation and does not pay
dividends like other utilities.  TVA’s lower TFC can be explained to some extent by (1) TVA’s financing
structure not including the common or preferred stock that has a higher cost of capital and (2) TVA’s
AAA credit rating resulting in lower interest costs for TVA.  The other utilities’ shareholders require
a return for the investment risk they assume which is an additional financial cost for the other
utilities that is not part of TVA’s financial structure.  However, unlike interest costs, dividends may be
eliminated at the company’s discretion based upon the economic circumstances of the company.

                                                  Table 8. Total Financing Costs per Revenue Dollar


                                         0.1600

                                         0.1400
             Total FInancing Costs per




                                         0.1200
              Revenue Dollar - 2010




                                         0.1000

                                         0.0800

                                         0.0600

                                         0.0400

                                         0.0200

                                         0.0000
                                                   TVA      Southern    Duke     Dominion     AEP     Ameren




Special Project 2009-13007-01                                                                                              18
Office of the Inspector General                                                                           Special Project

                                       CHALLENGES FACING TVA
TVA faces many challenges, many of which have been publicly discussed due, in part, to the
commitment of both the TVA Board and the TVA Chief Executive Officer (CEO) since the Kingston
ash spill to be more transparent about major issues facing the company. Going forward, these
challenges will affect both its debt levels and its ability to maintain its debt below the current $30
billion statutory debt ceiling. As of June 30, 2010, TVA’s statutory debt balance was $23.4 billion and
its alternative financing balance was $2.2 billion. TVA forecasts a statutory debt balance of $24.3
billion and an alternative financing balance of $2 billion by September 30, 2011. In anticipation of this
debt increase and the future challenges, TVA has determined that it will have to address the debt
ceiling issue. The list of challenges we cite here facing TVA is not all-inclusive but emphasizes some
significant issues that will impact its ability to stay within the current debt ceiling.

      •	 TVA’s New Strategic Direction – On August 26, 2010, TVA announced its plan to idle nine
         older coal units, add new nuclear generation, and improve energy efficiency.  These efforts are
         part of TVA’s new vision statement to make TVA the nation’s leader in improved air quality and
         increased nuclear production and the southeastern leader in increased energy efficiency.

      •	 Aging Fossil Generation Fleet – TVA faces challenges in providing a reliable and economic
         power supply owing to the age of its coal-fired generation fleet.  On average, TVA’s coal-fired
         generation fleet is among the oldest of any utility in the southeastern United States.  As of
         September 30, 2009, the weighted average age of TVA’s coal-fired generation assets was 47
         years.  During recent years, TVA has on average invested less in maintaining its generation
         assets than surrounding utilities.  Although TVA increased its maintenance expenditures on
         generating assets in 2011, it may not be economical to improve the reliability of some units in
         light of their age and current condition.

      •	 Environmental Regulations – TVA expects increased environmental regulation in the future,
         including the regulation of mercury and the emission of greenhouse gases (GHG) such as carbon
         dioxide.  TVA has considered and intends to continue considering fuel mix in making decisions
         about additional generation.  The restart of Browns Ferry Unit 1, construction to complete Watts
         Bar Unit 2, the filing of a Combined Construction and Operating License Application for two new
         units at the Bellefonte Nuclear Plant, and the reactivation of the construction permits for existing
         Bellefonte units are examples of TVA’s activities to pursue or consider generation sources that
         do not emit GHGs.  The nature or level of future regulation of GHGs is unclear at this time.  
         Accordingly, the costs associated with such regulation are currently unknown but could be
         substantial.  TVA would have to recover such costs in rates or pursue some other action, which
         might include removing some coal-fired units from service.

      •	 Litigation – In addition, TVA has received several notices of intent to sue under various
         environmental statutes from both individuals and environmental groups.  However, according
         to TVA’s 8K, dated April 14, 2011, one series of lawsuits was recently resolved.  Specifically,
         on April 14, 2011, TVA entered into two agreements14  that generally will absolve TVA from
         any liability under new source review and associated requirements under the Clean Air Act for
         maintenance, repair, and component replacement projects at TVA’s coal-fired plants.  Relevant
         portions of the agreements, which are substantially similar, provide:
14
       One of the agreements is a Federal Facilities Compliance Agreement with the United States Environmental Protection
       Agency, and the other agreement is a proposed consent decree with the states of Alabama, North Carolina, and
       Tennessee, the Commonwealth of Kentucky, and three environmental advocacy groups.
Special Project 2009-13007-01                                                                                           19
Office of the Inspector General                                                            Special Project

       o	 TVA, with the Environmental Protection Agency’s approval, will invest $290 million in energy
          efficient projects, demand response projects, renewable energy projects, and other TVA
          projects.

       o	 TVA will provide Alabama, Kentucky, North Carolina, and Tennessee $60 million to fund
          environmental projects, giving a preference for projects in the TVA watershed.

       o	 TVA will pay a $10 million civil penalty that will be divided among the Environmental
          Protection Agency, Alabama, Kentucky, and Tennessee.

       o	 TVA committing to retiring (on a phased schedule) two units at the John Sevier Fossil Plan,
          the six small units at the Widows Creek Fossil Plant, and ten units at the Johnsonville Fossil
          Plant.

  •	 Pension Funding Shortfall – TVA’s retirement benefit levels, not funding TVARS (Tennessee
     Valley Authority Retirement System) for six years, a mature retirement system, and the market
     crash of 2008 and early 2009 have resulted in a “perfect storm” in which TVARS has become
     significantly underfunded.  As part of a broader market decline, the pension plan experienced
     dramatic declines in asset values over the past two years because of much lower-than-expected
     asset returns, which have affected the funded status.  In 2008, asset values declined $1.8 billion.  
     Although financial markets improved in 2009, the plan remains below 100 percent funded, partly
     because of the approximately $600 million in benefits that are being paid out each year.  To
     help improve the funded status of the plan, TVA made a discretionary pension contribution of $1
     billion in September 2009.  If investment asset returns are at or above expectations, no further
     contributions will be made from 2010 through 2013.  However, if actual returns continue to be flat
     or lower than expected or benefit payments rise significantly, additional contributions to the plan
     over the next few years may be necessary.

    In response to our draft report, TVA management stated that the TVA Board of Directors recently
    approved a discretionary contribution of $270 million for FY 2011 and delegated authority to the
    CEO to approve a discretionary contribution for FY 2012. TVA management also stated that the
    contribution of $1 billion made in 2009 fulfilled its obligations for fiscal years 2010 through 2013.
    However, as noted above, depending on market forces and benefit payments, additional funding
    may be necessary to maintain and achieve a healthy and solvent pension fund.

  •	 Renewable Portfolio – Pending federal legislation involves renewable energy and energy
     efficiency.  Depending on the details of the statute that is enacted, over the calendar year (CY)
     2011 to CY 2039 time frame, TVA might have to ensure that anywhere from 3 percent to 20
     percent of the electricity it sells is produced by renewable sources (as defined by Congress),
     or make alternative compliance payments for any deficiencies.  In addition, H.R. 2454,
     American Clean Energy and Security Act of 2009, which was passed by the U.S. House of
     Representatives, would cut U.S. GHG emissions 17 percent by CY 2020 from CY 2005 levels
     and 83 percent by CY 2050.  Utilities are a source of GHG emissions and would likely be
     impacted by such legislation.  Under most proposed legislation, renewable power generation
     resources include solar, wind, incremental hydroelectric, biomass, and landfill gas.  Generating
     power with renewable sources instead of coal-fired plants could help reduce the carbon dioxide
     intensity of TVA’s power generation.  But power generated using renewable sources, with current
     technologies, may not be economically competitive compared with existing power generation
     assets.  Technology advancements will need to address some of the operational issues

Special Project 2009-13007-01                                                                          20
Office of the Inspector General                                                           Special Project

     associated with renewable energy, such as energy storage for intermittency and interconnection
     technologies for on-site, nongrid-connected renewables and efficiencies.

     Most renewable energy resources are geographically specific.  Some regions of the United
     States have an abundance of wind and solar resources, whereas other regions have
     hydroelectric resources.  Regional differences and limitations play a primary role in the types and
     amount of renewable and clean energy developed across the country.  Within the area served by
     TVA, two of the most abundant renewable resources are hydroelectric and biomass.  Feasible
     wind energy in this region is primarily associated with mountain top and ridgeline installations,
     and the total potential capacity is limited when compared with other parts of the nation where
     wind energy is more abundant.  If TVA is required to increase its use of renewable resources and
     the cost of doing so is greater than the costs of other sources of generation, TVA’s costs may
     increase significantly.

  •	 Kingston Ash Spill Cleanup – TVA has recorded in its financial statements an estimate of
     $1.1 billion to clean up this event.  The $1.1 billion estimate currently includes costs related
     to ash dredging and processing, ash disposition, infrastructure repair, dredge cell repair,
     root cause analysis, certain legal and settlement costs, environmental impact studies and
     remediation, human health assessments, community outreach and support, regulatory oversight,
     cenosphere recovery, skimmer wall installation, construction of temporary ash storage areas,
     dike reinforcement, project management, and certain other remediation costs associated with
     the cleanup.  If the actual amount of ash removed is more or less than the estimate, the expense
     could change significantly, as this affects the largest cost components of the estimate.  

  •	 Bond Rating – According to TVA’s 2010 Annual Report, “although TVA’s bonds are not
     obligations of the United States, and the United States does not guarantee the payments of
     principal or interest on bonds, TVA’s credit ratings could be downgraded if the sovereign credit
     ratings of the United States are downgraded.” Standard & Poor’s downgraded the United States
     and TVA’s credit rating from AAA to AA+. The downgrade of TVA’s rating to AA+ by Standard &
     Poor’s may increase TVA’s interest expense by increasing the interest rates that TVA pays on
     debt securities that it issues.

                        FINANCING STRATEGY ALTERNATIVES
As presented in this report, TVA has a long history of providing low-cost electricity to the Tennessee
Valley, but it faces increasing challenges that will have a financial impact on its future.  Although
increasing the debt ceiling has historically been TVA’s approach to meeting its financing needs, it is
by no means the only financing strategy.  The various strategies discussed below were developed
based on (1) our review of internal TVA documents regarding various financing arrangements, (2)
interviews with TVA executives and other legal and financial personnel, and (3) discussions with the
head of the Tennessee Valley Public Power Association, Inc., OMB personnel, and consulting staff
from PricewaterhouseCoopers.

Some of the following alternatives would require a statutory change to the TVA Act.  Currently,
the TVA Act provides:  “[t]he Corporation is authorized to issue and sell bonds, notes and other
evidences of indebtedness (hereinafter collectively referred to as ‘bonds’) in an amount not exceeding
$30,000,000,000 outstanding at any one time to assist in financing its power program and to refund
such bonds.”  Any change to the Act, including a modification to increase TVA’s current indebtedness
ceiling of $30 billion, would need to go through the legislative process.  
Special Project 2009-13007-01                                                                            21
Office of the Inspector General                                                                                  Special Project

In presenting these strategies, OIG takes no position on which strategy or combination of strategies
might be more feasible.  That is a pure policy decision reserved for the TVA Board.  The pros and
cons listed below necessarily contain some element of subjective opinion.  We present these
strategies and their relative merits strictly as a cumulative summary of the varied views we canvassed
from the sources mentioned above.

Leave Debt Ceiling Unchanged and Increase Customer Rates
TVA currently has two major sources of funding for operations and capital needs:  debt or customer
rates.  As TVA nears the debt ceiling, it faces an increased risk of having its debt rating downgraded.  
Without an increase in the debt ceiling, TVA will more than likely have to use rate increases to fund
operations and capital needs; otherwise, needed maintenance or capital projects may have to be
postponed, which could have a negative impact on the reliability of TVA’s power system.  Currently,
TVA has one of the older generating fleets in the southeast United States.  With limited resources
and an older generating fleet to maintain and operate, 15 TVA faces an increased risk of not meeting
governmental regulations and mandates.  If TVA does not obtain relief from its borrowing authority
limit, it may have to increase rates more than planned, which could have a detrimental impact to the
economic growth of the region.

Raising customer rates could provide TVA with the flexibility to reduce debt and/or fund capital
projects, depending on the size of the rate increase.  Because the TVA Board of Directors controls the
rate setting process, the decision to increase customer rates can be made internally.  Also, increasing
customer rates could improve TVA’s ability to maintain or improve system reliability, meet increased
demand, and conform to environmental regulations.  However, TVA has marketed itself as a low-cost
provider of electricity, and any customer rate increases may impact its ability to make that claim.  Past
customer rate increases have prompted complaints, and future customer rate increases may bring
more complaints depending on the magnitude of the increases.  Residential and industrial complaints
may also increase political pressure at local, state, and federal levels.  Increased customer rates may
also negatively impact economic development in the TVA service territory.  Although the TVA Board of
Directors control the rate setting process, they have sworn to uphold the requirements of the TVA Act,
which includes keeping rates as low as feasible.

On the other hand, funding capital projects by raising customer rates is only a short-term solution
and is not sustainable long term.  Funding these projects with current rates is inconsistent with the
financial principles established by the TVA Board which call for debt to not exceed the useful life of
existing assets, and new debt to be only used for new assets.  Most companies and governments
do not fund large multiyear capital projects that will serve customers for decades through annual
revenue.  Instead, most projects of this nature are funded through debt or a combination of debt and
equity because these projects benefit future periods, and issuers do not want to fully burden current
customers with the cost of the project.  The cost of the project is funded over time by all customers
that benefit from the project through the debt service payments of the project’s bond issue.

Importantly, this option of raising rates to fund projects would not require a change to the TVA Act
and could alleviate some apprehension about opening the Act.  Specifically, some within TVA are
concerned that opening the Act could lead to changes that could be detrimental to TVA.  For example,
according to OGC, when the TVA Act was opened to establish TVA’s self-financing structure, it was
also amended to include the service territory (“fence”) even though the fence was not originally part of
the proposed amendment.  Removal of the Anti Cherry-picking provision from the TVA Act has been
15
     While the April 2011 agreements with the Environmental Protection Agency and other parties discussed above will
     require TVA to retire 18 units at three of TVA’s fossil plants, TVA must still operate and maintain its remaining fossil
     units, some of which are more than 40 years old.
Special Project 2009-13007-01                                                                                                   22
Office of the Inspector General                                                             Special Project

attempted in the past but has ultimately failed, which increases concerns that opening the TVA Act to
increase the debt ceiling limit may also lead to unwanted changes.  In addition, public perception of
TVA seeking an increased debt limit may be quite negative judging from the current public opposition
to increasing the federal government’s debt ceiling.

Define the Debt Ceiling in Terms of a Financial Metric Rather Than a Set Dollar Amount
Under this option, the maximum bond borrowing authority would be set through a financial metric.  
TVA is currently considering whether its request for debt ceiling relief to Congress should include
replacing the ceiling with the DSC ratio.  As noted above, when appropriate, the DSC ratio provides
a general measure of the amount of debt that can be supported by a company’s cash flow for a
specific period.  In general, the higher the ratio, the more likely a company will be able to service its
debt obligations in a timely manner.  However, analyzing this ratio on a strictly annual basis can be
misleading because the ratio can be relatively large in one year and significantly smaller in another
year, depending on the maturity dates of an entity’s debt obligations.  To compensate for significant
fluctuations from year to year, TVA is considering the option of using a DSC ratio that is averaged
over a specific period of time.

This option would allow TVA to manage its finances based on its ability to repay its debt rather than
have its borrowing authority be constrained by a set dollar amount.  A financial metric, rather than a
debt ceiling stated in terms of an arbitrary dollar amount, would provide control of TVA’s borrowing
authority that is tied to TVA’s ability to pay outstanding debt, similar to IOUs, while still providing
Congress with oversight and control.  However, because the current debt ceiling established in the
TVA Act is stated as a dollar amount, this option would require a change to that Act.  

                     “Debt is TVA’s lowest-cost form of financing
                                 long-lived assets.”
Increase Debt Ceiling Incrementally Based on Planned Capital Needs
This option would allow TVA to fund major capital projects without increasing customer rates and
would also provide Congress with a plan for how TVA would use the proceeds of the debt.  As Table
9 shows, Congress approved TVA’s self-financing status in 1959 and, on average, increased TVA’s
debt ceiling once every five years, up until the last increase in 1979.  These incremental increases,
made through changes to the TVA Act, provided a platform for Congress to have more oversight of
TVA because the increases were based on needs identified in TVA’s financial plans.  At the same
time, TVA would benefit from obtaining needed funding through an increase to the debt ceiling, which
is the lowest cost option for TVA and its customers to finance capital needs. Incremental increases
could improve TVA’s ability to maintain or improve system reliability, meet increased demand, and
conform to environmental regulations and also could provide an opportunity for TVA to demonstrate
its accomplishments, including keeping rates as low as feasible.  Nonetheless, increasing the debt
ceiling above the current $30 billion limit would lead to a greater amount of debt for TVA, which could
be perceived negatively in the current weak economy and the foster uncertainty about how higher
debt levels can be sustained.

                         “Although TVA receives no federal
                       appropriations, additional borrowing by
                     TVA is included in the overall federal budget
                                       deficit.”
Special Project 2009-13007-01                                                                               23
Office of the Inspector General                                                             Special Project

According to the OGC, because of federal budgetary principles, TVA’s expenditure of increased
borrowings is presented in the budget as being equivalent to TVA’s receipt and expenditure of
congressional appropriations and would cause an equal increase in the overall federal budget deficit
that currently exists .  Thus, Congress’ current mission to reduce the federal deficit, coupled with
resistance from those who generally oppose a debt ceiling increase, could be a constraint to TVA’s
success in getting the debt ceiling increased.

Defer Capital and Operations and Maintenance Projects
This is not a realistic option from TVA’s perspective because, as stated previously, TVA faces
challenges in providing a reliable and economical power supply owing to the age of its generation
fleet.  On average, TVA’s coal-fired generation fleet is among the oldest of any utility in the
southeastern United States.  Therefore, TVA is probably limited in the amount of capital and
operations and maintenance projects that can be deferred.  Even if substantial projects could be
deferred, this option would only be a short-term stopgap measure before some other source of
funding was obtained for the necessary capital and operations and maintenance projects to take
place.

This option increases the risk of reliability problems.  

Encourage Distributor-Owned Generation (Generation Owned Partially or Fully by TVA
Distributor(s))
TVA and some distributors are pursuing this option and, according to TVA’s FY 2010 Annual Report,
currently have an interim joint-ownership arrangement in place.  This option shares the risk of
ownership with the distributors and satisfies a segment of distributors that want an equity ownership
in TVA.  This option could also improve TVA’s ability to maintain or improve system reliability, meet
increased demand, and conform to environmental regulations.  Because the distributor-owned
generation option would likely not involve the issuance of bonds, there would be no need to increase
the current TVA debt ceiling.  Therefore, TVA could add generation to its system without having it
count toward the $30 billion debt ceiling.

However, with this option, TVA may not be able to structure the transaction in a manner that would
not produce a liability that is legally considered to be statutory debt.  TVA and the distributors may
not be able to negotiate a fair and equitable arrangement for all parties.  For example, if TVA and
the distributors share ownership of an asset, there may be potential difficulties in determining how
liabilities are shared if problems arise during construction or operations that require additional capital
outlays.  

Increase Use of Alternative Financings (Lease-Leaseback, Capital Leases, and Energy
Prepayments)
TVA already uses the methods listed under this option as alternative financing to debt, and based
on information we obtained for this review, this option does not technically count toward TVA’s debt
ceiling. Therefore, it would eliminate any negative publicity that another option, such as raising the
debt ceiling, would have. This option would also improve TVA’s ability to maintain or improve system
reliability, meet increased demand, and conform to environmental regulations.

There is also the risk that the arrangement may result in costing more than debt financing (dependent
on the asset value at the end of the arrangement). Because TVA views issuing debt as its lowest cost
of meeting capital needs, this would also result in additional costs for TVA ratepayers.


Special Project 2009-13007-01                                                                           24
Office of the Inspector General                                                                                 Special Project

Establish Purchased Power Agreements (Power Purchased From Other Entities Based on
Contractual Agreements)
TVA currently uses purchased power agreements to supplement its generating capacity.  Depending
on the terms of the purchased power agreement, this option may or may not produce a liability that is
legally considered statutory debt.  Nevertheless, one of the main disadvantages of this option is that
TVA loses some control of the power supply.  TVA would be relying on another company to provide
a portion of the power supply, which increases the risk of system reliability issues and the cost to the
TVA ratepayers.  There is additional risk that the purchased power agreement counterparty company
could declare bankruptcy or renege on its obligation under the agreement (i.e., providing the agreed-
upon amount of electricity).  In fact, in 1999, the counterparty on one of TVA’s purchased power
agreements reneged on the agreement during a high demand period, forcing TVA to purchase power
in the spot market at prices that were much higher than the agreed price.  According to TVA, the
default led TVA to rely less on purchased power agreements and more on its own generation, which
required unanticipated spending.

Entering into an Agreement With Another Party for the Purpose of Financing New Generation
(Partnering)
This option is related to TVA entering into an agreement with another party, specifically to allow the
other party to finance new generating capacity for TVA’s use only, in order to meet future load.  Under
a Special Purpose Entity (SPE)16  arrangement, TVA would contribute the existing assets to the
SPE, while the other parties would finance the completion of the asset.  Once completed, TVA would
operate, maintain, and take the power from the generating units.  This option would not produce a
liability that is legally considered to be statutory debt.  

An SPE agreement could have several major issues/problems.  One primary obstacle is the ability to
find a partner or partners that will fund the project through completion.  Specifically, there is the risk
that the project may not be completed and/or produce revenue, either because the financing was cut
off before completion or because the project was poorly constructed.  Another risk to the partners
relates to how TVA will compensate their investment in the project.

An agreement could include a payment structure based on “take and pay,” meaning that TVA would
pay only for the electricity that was generated by the assets.  Under this arrangement, the partner
may not be able to recoup its investment, depending on whether enough electricity is generated by
the assets.  

In addition, TVA is a government corporation and therefore has to comply with the Government
Corporation Control Act.  For this option to be in compliance with the Act, the agreement would have
to be structured in such a way that TVA would not have controlling interest in the SPE but would
still be the primary recipient of the generation.  TVA may be required to provide separate financial
statements for the generating plant operations to the partner at an added cost.  Owing to the
additional risks discussed above and the return that a partner would require for accepting this risk,
this option may cost TVA ratepayers significantly more than if the project were funded solely through
TVA debt.


16
       An SPE is a legal entity (usually a limited company of some type or, sometimes, a limited partnership) created to fulfill
       narrow, specific, or temporary objectives.  SPEs are typically used by companies to isolate the firm from financial risk.  
       A company will transfer assets to the SPE for management or use the SPE to finance a large project, thereby achieving
       a narrow set of goals without putting the entire firm at risk. SPEs are also commonly used in complex financings to
       separate different layers of equity infusion.
Special Project 2009-13007-01                                                                                                  25
Office of the Inspector General                                                            Special Project

Demand Reduction Program
According to TVA’s Environmental Impact Statement related to its Integrated Resource Plan issued
in March 2011, “TVA currently has a portfolio of demand-side management programs focusing on
energy efficiency and demand response (EEDR).  Energy efficiency programs are designed to reduce
the use of energy while providing the same level of energy service.  Demand response programs are
designed to temporarily reduce a customer’s use of electricity, typically during peak periods when
demand is highest.”  In addition, the Environmental Impact Statement also provides that “TVA’s EEDR
programs are targeted at residential, commercial and industrial customers, and include a variety of
energy-saving tools and incentives that help save energy and reduce power costs while providing
peak reduction benefits for the power system.”  TVA’s Integrated Resource Plan issued in March 2011
states that the goal of these programs is to reduce future load requirements by 3.5 percent and would
“result in an energy savings of about 6,000 GWh by the end of 2015.”  The Integrated Resource Plan
predicts that “meeting this goal would:  (1) save residential and commercial power customers more
than $350 million in FY 2015, (2) provide 1,900 MW of extra power capacity on the TVA system, and
(3) prevent TVA from having to build at least two new power plants.”

The demand reduction programs may reduce the need for some capital outlays and have the added
benefit of being environmentally friendly by reducing the amount of generation needed to meet load.  
According to TVA, reducing demand will cost more than meeting demand with additional capital
outlays funded with bonds and will reduce TVA revenue.  However, if unsuccessful, the programs may
not be able to substantially reduce peak demand in order to eliminate capital projects.

Institute Congressional Appropriations for Clean Energy Projects
This would not produce a liability that is legally considered to be statutory debt.  This would provide a
new and different avenue for raising finances that TVA does not currently have and would not have a
direct impact on TVA customer rates.  Under this option, TVA could benefit from obtaining the needed
funding and demonstrating it has specific plans that agree with congressional clean energy initiatives,
and Congress can benefit from having better information about TVA and a closer relationship in
monitoring TVA’s activities.

According to TVA, this option would be challenging to accomplish since TVA has not received any
appropriations since 1999 and for power projects since 1959.  It would require legislative action and
possibly require amendments to the TVA Act.  This option may also involve more parties external
to TVA in TVA’s generation mix decision-making process.  Implementing this option may require
significant time before action is taken, which may impact TVA and the debt ceiling limit.

Issue Equity Securities
This option would not produce a liability that is legally considered to be statutory debt.  This would be
a new and different avenue for raising finances and would not have a direct impact on TVA customer
rates.  

However, issuing equity securities would require a change to the TVA Act and could be viewed by
TVA and TVA distributors of power as leading to privatization of TVA.  Some distributors would like
an equity stake in TVA and may not be in favor of this option because others outside the TVA service
area could become equity owners before the distributors.  This option is considered a higher cost of
capital than debt, which would result in a higher cost to TVA’s ratepayers.  Also, depending on the
demand for TVA equity securities, this option may not create the capital that TVA needs.

Allow Another Entity to Serve Load Growth That TVA Cannot Serve Without Adding Capacity
This option would not produce a liability that is legally considered to be statutory debt.  Although it
Special Project 2009-13007-01                                                                             26
Office of the Inspector General                                                                              Special Project

could eliminate the need for TVA to add capacity for future demand, it does not eliminate the need
to add capacity in order to replace older plants and meet new environmental regulations.  The TVA
Act and Anti-Cherry-picking provision of the Federal Power Act do not preclude TVA from agreeing
to allow another entity to sell power inside the current TVA service territory.  Most Valley states have
exclusive retail service territories assigned to specific “monopoly” suppliers, which prevent other
suppliers from serving retail load in a given retail service territory.  These state laws do not apply to
wholesale sales.

However, according to TVA, since TVA power contracts with distributors are all-requirements  
contracts, those contracts would have to be amended to become partial requirements17 contracts to
enable a distributor to purchase all or part of its load growth from other suppliers.  This option may
increase the risk of customer service decline and raises several questions about rate setting within
the TVA service area, determining load growth and selecting the utility to serve the additional load,
and determining whether this is a short-term arrangement.

Encourage Factoring of Accounts Receivable and/or Inventory
Factoring is a financial transaction whereby a business sells its accounts receivable or inventory
to a third party (or factor) at a discount in exchange for immediate money with which to finance
continued business.  Factoring is a common financing type of arrangement and would provide TVA
with limited financing.  This option would not require changes to the TVA Act.  However, according to
TVA personnel, this option would have minimal impact on TVA’s current debt situation based on the
minimal amount of funds TVA could raise from it.  In addition, factoring would require TVA to incur the
additional cost associated with discounting the factored accounts receivable or inventory.

Explore a Combination of the Above Scenarios
The scenarios listed above can be used in combination to help TVA meet its capital and operations
and maintenance needs.  The positives and negatives outlined above for each option would still
apply and would need to be weighed carefully by TVA to determine the appropriate mix of options.  
In addition, some of the options discussed above are contingent upon approval and acceptance by
parties independent of TVA.  While TVA may be able to influence the decisions of these parties, many
of the critical decisions to be made are outside of TVA’s control.  For example, an increase in the debt
ceiling (either in the form of a stated dollar amount or a financial metric) would require a change to the
TVA Act, which would require congressional approval and implementation of that request.  Similarly,
if TVA is unable to obtain partners to finance new generation, it will likely not be able to pursue the
“partnering” option discussed above.  Based on these uncertainties and the relative positives and
negatives of each option, individually, and when considered with other options, we believe that
TVA should consider evaluating a mix of options that best suits its current and projected long-term
financial position.  




17
       A written agreement whereby a buyer assents to purchase for a sufficient consideration all the goods of a designated
       type that he or she might require for use in his or her own established business.  In this case, TVA distributors are
       required to purchase all of their power requirements from TVA.
Special Project 2009-13007-01                                                                                                  27
Office of the Inspector General                                                             Special Project

                                          CONCLUSION
As previously noted, TVA’s challenges are great with the need for financial flexibility to ensure the TVA
mission of delivering low cost power is achieved.  The current debt ceiling could limit TVA’s financial
flexibility and require TVA to seek higher cost financing options or require significant rate increases
that could adversely affect the economic development of the Tennessee Valley region.  Although
TVA is in the process of evaluating options, TVA’s position is that a financial metric (e.g., something
similar to the DSC ratio), rather than a debt ceiling stated in terms of an arbitrary dollar amount, would
provide control of TVA’s borrowing authority that is tied to TVA’s ability to pay outstanding debt, similar
to IOUs, while still providing Congress with oversight and control.

The Inspector General agrees with TVA management in their efforts to maintain maximum financial
flexibility including (1) the adoption of sound financial principles, (2) ensuring multiple options and
strategies are pursued to achieve the most economical approach, and (3) seeking to ensure that debt
remains a viable option in future financing decisions.

TVA should be able to support additional debt to help meet energy demands as long as TVA uses
the debt proceeds to successfully build generating capacity,  the TVA Board maintains its ratemaking
authority, and TVA maintains its service territory and customer base.




Special Project 2009-13007-01                                                                           28
Office of the Inspector General                                                           Special Project

                    OBJECTIVES, SCOPE, AND METHODOLOGY
As part of our FY 2010 audit plan, we assessed TVA’s financial flexibility given its current debt and
other borrowing levels and alternatives for TVA to meet its future financing needs.  To achieve our
objectives, we performed the following actions:

  •	 Reviewed the TVA Act to obtain an understanding of TVA’s borrowing authority and restrictions
     on other financing arrangements.

  •	 Reviewed recent GAO and OIG reports to obtain background information related to TVA’s debt.

  •	 Interviewed personnel from Financial Services (including the Treasury, Financial Planning and
     Risk, and Controller organizations) and the OGC to obtain information related to TVA’s debt and
     other financing arrangements.  

  •	 Reviewed documentation from Financial Services related to TVA’s (1) long-range financial
     planning process, (2) planned construction expenditures through 2014, (3) debt ceiling adjusted
     for inflation, and (4) alternative financing sources.

  •	 Interviewed the president and chief executive officer of the Tennessee Valley Public Power
     Association, Inc., and representatives from OMB to obtain information about TVA’s debt ceiling
     and financing alternatives.

  •	 Reviewed TVA’s balance sheet data for 1979 through 2010 to calculate debt ratios.

  •	 Reviewed balance sheet data for five utility companies—Southern Company, Duke Power,
     Dominion Resources, American Electric Power, and Ameren.  The information from the company
     balance sheets was used to calculate debt ratios for comparison with TVA debt ratios.

  •	 Reviewed congressional hearing testimonies related to the establishment of the TVA debt ceiling
     in 1959 and the subsequent increases in the debt ceiling in 1966, 1970, 1975, and 1979.

  •	 Interviewed a representative of the Bonneville Power Administration to determine if it had any
     financing options that TVA may want to consider other than issuing debt.

  •	 Interviewed a representative of TVA’s Government Relations concerning congressional oversight
     of TVA.  

  •	 Attempted to obtain opinions from TVA critics concerning the possibility of TVA requesting an
     increase in its debt ceiling.  We contacted representatives from the Southern Alliance for Clean
     Energy, Peter G. Peterson Foundation, Recycled Energy Development, National Resource
     Defense Council, and the Cato Institute.  Each of the representatives had in the past written
     articles critical of TVA.  The people we attempted to contact either turned down our request to
     comment or never responded to our request.

  •	 Calculated TVA’s debt ratio for FYs 1979 through 2010 to determine the trend in TVA’s debt ratio.




Special Project 2009-13007-01                                                                           29
Office of the Inspector General                                                                        Special Project

                  TVA’s History                             the balance of power, and on May 18, 1933,
                                                            President Roosevelt signed the Tennessee Valley
TVA’s Early Years and Events Leading to                     Authority Act into law.21   The TVA Act established
   Establishment of Self-Financing Status                   TVA as a federal corporation charged with
                                                            improving the navigation and flood control of the
TVA’s history is well known by most of its
                                                            Tennessee River, encouraging reforestation and
stakeholders, and that history provides necessary
                                                            proper land use in the area, providing regional
context for the debt ceiling issue.  TVA’s
                                                            agricultural and industrial development, and
birthplace is located in Muscle Shoals, Alabama,
                                                            operating national defense-related properties at
where the Tennessee River drops 140 feet over
                                                            and near Muscle Shoals, Alabama.  
30 miles.  This drop in elevation created the
rapids or “shoals,” for which the area is named,
                                                            TVA faced several challenges during its early
and made it all but impossible for ships to travel
                                                            years.  Even though Americans had shown some
up the Tennessee River.  In 1916, the federal
                                                            support for public ownership of utilities, during
government acquired the site to construct a dam
                                                            the 1920s and the Great Depression years,
that would generate electricity needed to produce
                                                            the concept of government-owned generation
explosives for the World War I effort.  In the
                                                            facilities selling to publicly owned distribution
years following the end of World War I, Congress
                                                            utilities was controversial.  Many believed that
debated about how the property should be used.  
                                                            privately owned power companies were charging
Some members of Congress wanted to sell the
                                                            too much for power, did not employ fair operating
dam to private interests, and at one time Henry
                                                            practices, and were subject to abuse by their
Ford offered to purchase the site and develop a
                                                            owners at the expense of consumers.22 The
nitrate plant in the area.  
                                                            strongest opposition to TVA came from power
                                                            companies that resented the cheaper energy
                                                            available through TVA and saw it as a threat to
                                                            private development.  They charged that the
                                                            federal government’s involvement in the power
                                                            business was unconstitutional.23   However,
                                                            in Ashwander v. TVA, 297 U.S. 288 (1936),
                                                            the U.S. Supreme Court held that TVA was
                                                            constitutional, noting that regulating commerce
                                                            among the states included regulation of streams
                                                            and that flood control is required to keep streams
                                                            navigable.  

                                                            TVA had argued that electricity generation was a
                                                            “by-product” of navigation and flood control and
                                                            therefore could be considered constitutional. 24
Senator George W. Norris of Nebraska led the
fight to retain public control over the property.  In                  1930s - TVA Starts to Make a
fact, Senator Norris tried six times to introduce                            Positive Impact
bills for the federal development of the area, but
all were defeated by the resistance of Republican           During the Depression, much of the Tennessee
administrations.18   The election of Franklin               Valley land was farmed too hard for too long,
D. Roosevelt,19  who backed Norris’ plan to
                                                            21
                                                                 Source:  http://www.u-s-history.com/pages/h1653.html
                                                            22
                                                                 Source:  http://www.newworldencyclopedia.org/entry/
develop the Tennessee River Valley,20  changed
                                                                 Tennessee_Valley_Authority
18
     Source:  http://newdeal.feri.org/tva/tva01.htm         23
                                                                 Source:  http://newdeal.feri.org/tva/tva17.htm	
19
     Source:  http://www.u-s-history.com/pages/h1653.html   24
                                                                 Source:  http://www.newworldencyclopedia.org/entry/
20
     Source:  http://newdeal.feri.org/tva/tva01.htm              Tennessee_Valley_Authority	

Special Project 2009-13007-01                                                                                           30
Office of the Inspector General                                                                       Special Project

eroding and depleting the soil.  Crop yields had                        1940s - TVA’s Contribution
fallen along with farm incomes, and the best                                to the War Effort
timber had already been cut.  TVA was designed
to modernize the region, using electricity to              During World War II, the United States needed
combat human and economic problems.  During                aluminum to build bombs and airplanes, and
the 1930s, TVA developed fertilizers, taught               aluminum plants were heavy users of electricity.  
farmers how to improve crop yields, and helped             To provide power for such critical war industries,
replant forests, control forest fires, and improve         TVA engaged in one of the largest hydropower
habitat for wildlife and fish.  But perhaps the most       construction programs ever undertaken in the
dramatic change in Valley life came from TVA-              United States.  Early in 1942, when the effort
generated electricity.  From October 1933 through          reached its peak, 12 hydroelectric projects and a
July 1939, TVA began construction on eight                 steam plant were under construction at the same
dams,25  three26  of which became operational              time, and design and construction employment
before the end of the decade.  Electric lights and         reached a total of 28,000.
modern home appliances made life easier and
farms more productive.  Electricity also drew
industries into the region, providing desperately
needed jobs.




                                                           The largest project of this period was the Fontana
                                                           Dam.  TVA purchased the land for Fontana from
                                                           Nantahala Power and Light, a wholly owned
                                                           subsidiary of Alcoa.28  Electricity from Fontana
None of this was easy.  The development of                 was intended for Alcoa factories, but TVA also
the dams displaced more than 15,000 families,              provided much of the electricity needed for
causing resentment and anti-TVA sentiment in               uranium enrichment at Oak Ridge, Tennessee,
some rural communities.  Many local landowners             which was required for the Manhattan Project.29
were suspicious of government agencies.  But
TVA successfully introduced new agricultural                    1950s - Growing Demand for Electricity and
methods into traditional farming communities by                         the Need for More Funding
blending in and finding local champions. 27                By the end of the war, TVA had completed a
                                                           650-mile navigation channel the length of the
                                                           Tennessee River and had become the nation’s
25
     Construction began on Norris Dam, Wheeler Dam,
                                                           largest electricity supplier.  Even so, the demand
     Pickwick Landing Dam, Guntersville Dam, Chickamauga
     Dam, Hiwassee Dam, Kentucky Dam, and Watts Bar        for electricity was outstripping TVA’s capacity to
     Dam during the 1930s.                                 produce power from hydroelectric dams.  From its
26
     Norris Dam, Wheeler Dam, and Pickwick Landing Dam     28
                                                                Alcoa (Aluminum Company of America) produces
     became operational during the 1930s.                       aluminum for various applications.
27
     Source:  http://www.newworldencyclopedia.org/entry/   29
                                                                Source:  http://www.newworldencyclopedia.org/entry/
     Tennessee_Valley_Authority	                                Tennessee_Valley_Authority	

Special Project 2009-13007-01                                                                                         31
Office of the Inspector General                                                                                Special Project

inception in 1933 through most of the 1950s, TVA
financed its day-to-day operations and capital
requirements primarily through congressional
appropriations and limited bond issuances.30
However, according to a TVA Web site, political
interference kept TVA from securing additional
federal appropriations to build coal-fired plants,
and it exhausted its bond borrowing authority by
the end of 1940.  At that point, it sought other
means to finance its goals and missions.  

In 1955, President Dwight D. Eisenhower
submitted a legislative proposal to Congress that
would have allowed TVA to self-finance its power
program using “revolving”31  borrowing authority.               As noted above, TVA did have some, albeit
                                                                limited, authority to issue bonds at the time
                                                                this proposal was submitted, and bonds that
                                                                were issued in connection with that authority
                                                                were backed by the full faith and credit of
                                                                the United States government.  According to
                                                                TVA’s OGC, any bonds issued under a “self-
                                                                financing” arrangement are not considered
                                                                obligations of or guaranteed by the United
                                                                States.  Like many legislative proposals,
30
     According to OGC, Section 15 of the original TVA Act       the original self-financing bill submitted by
     (1933) gave TVA the authority to issue up to $50 million   President Eisenhower was considered and
     of bonds to fund power program capital costs.  In 1935,    presented over several congresses before
     legislation was enacted to add Section 15a. to the TVA
     Act, which authorized TVA to issue up to an additional
                                                                the final version was enacted in 1959.  
     $50 million of bonds to lend money to newly forming
     municipal or cooperative electric systems in the Valley
     region to help them develop their distribution systems
     and connect to the developing TVA transmission
     system.  Finally, in 1939, the TVA Act was modified to
     authorize TVA to issue up to an additional $61.5 million
     for the purpose of purchasing the power system assets
     owned by four affiliates of what was then known as the
     Commonwealth & Southern Company, located in the
     Tennessee Valley region.  Any bonds issued pursuant
     to the above were backed by the full faith and credit
     of the United States government and were “face value
     issuance aggregate.”  According to OGC, “face value
     issuance aggregate” does not allow credit for additional
     borrowing for any debt repayments.  For example,
     assume a $50 million bond borrowing authority with a
     face value issuance aggregate limitation.  If the issuer
     borrows $20 million and repays $10 million, the issuer             Establishment of Self-Financing Status
     can issue only an additional $30 million in bonds, as
     the $10 million debt repayment is not considered in        In 1959, Congress amended the TVA Act to
     determining the maximum amount that may be issued.         provide TVA the means to self-finance its
31
     “Revolving authority,” unlike the “face value issuance
                                                                power program32  through revenues from
     aggregate” concept, functions like a credit card or line
     of credit and allows for additional borrowing equal to     32
                                                                       In addition, TVA also has nonpower programs, which,
     reductions in debt principal.                                     as discussed later, provides various public services not

Special Project 2009-13007-01                                                                                                 32
Office of the Inspector General                                                                                Special Project

electricity sales.  For capital needs in excess                          are now wanting to use a new method of
of funds generated from operations, TVA was                              financing, or proposing a bond issue rather
authorized to borrow by issuing bonds and                                than direct appropriations, they do not want
notes.  When Congress authorized TVA’s self-                             to submit themselves to the appropriation
financing borrowing authority, it also placed a                          controls, when it is nothing but a substitute
limit on the total amount of such borrowing.  This                       for appropriations. . .
limitation on borrowing authority is known as
the “debt ceiling” and represents the maximum                    Another House member from Iowa, Ben Jensen,
amount of “bonds, notes or other evidences of                    stated, “This proposal is nothing more than an
indebtedness”33  that TVA may have outstanding                   attempt to bypass the Appropriations Committee
at any one time.34   At the same time, Congress                  and to eliminate the control of the elected
required TVA to repay over time the unpaid                       representatives of the American people, in
balance of the approximately $1.2 billion to pay                 Congress assembled.”35
for capital projects completed or initiated prior
to 1959.  When this legislation was passed in                    Some participants in the hearings were also
1959, Congress set TVA’s maximum borrowing                       wary about the implications of bond financing
authority at $750 million.  Documentation of the                 with respect to the unpaid balance of $1.2
hearings held in March and June 1959 before                      billion that had previously been provided to
the U.S. House of Representatives and Senate                     TVA as appropriations.  TVA’s Manager of
Committees on Public Works reveals much                          Power G. O. Wessenauer indicated that this
controversy over whether TVA should have been                    amount represented equity and thus would be
granted self-financing bonding authority.                        subordinate to the repayment of bond principal
                                                                 and interest.  In response, Representative John
One concern raised during the March 1959                         F. Baldwin from California posed the following
hearing was that bond financing would allow TVA                  question:  
to circumvent the congressional and budgetary
controls inherent in the appropriations process.                         Actually at the present time the taxpayers
Specifically, Representative William C. Cramer of                        of the country are what you might call first
Florida testified:                                                       mortgage holders.  They put $1,200 million
                                                                         into the Tennessee Valley Authority.  The
     It wants to be a Government corporation for                         Tennessee Valley Authority now owes the
     the purpose of tax benefits, for the purpose                        first obligation for repayment over a period
     of lower rates and Federal funds, and for                           of 40 years to that.  Looking at it from the
     the purpose of many other beneficial things,                        standpoint of the taxpayers of the country,
     and yet, when it comes to Government                                who put that money in and have that
     control, which has always been exerted over                         obligation as first mortgage holders, why
     the corporation.  That simply because they                          should they, from their standpoint, want
     directly related to the generation of electricity. 	                to change their status from first mortgage
33
     Section 15d. (a) of the TVA Act (16 U.S.C. § 831)                   holders to second mortgage holders, and
     provides, “[t]he Corporation is authorized to issue and             have the first mortgagee be put in prior to
     sell bonds, notes and other evidences of indebtedness               them?
     (hereinafter collectively referred to as “bonds”) in an
     amount not exceeding $30,000,000,000 outstanding at
     any one time to assist in financing its power program       Opponents also expressed lingering uncertainty
     and to refund such bonds.”  As discussed further in this    as to who would bear ultimate responsibility for
     report, there are conflicting views about which financial   principal and interest payments on the bonds in
     instruments are included in the phrase “bonds, notes
     and other evidences of indebtedness” in the context of      35
                                                                        Taken from documented testimony of the hearings
     Section 15d. (a). 	                                                before the House of Representatives Committee on
34
     Source:  http://wordnetweb.princeton.edu/perl/                     Public Works, Eighty-Sixth Congress, First Session, on
     webwn?s=debt%20ceiling                                             H.R. 3460 and H.R. 3461.	

Special Project 2009-13007-01                                                                                                33
Office of the Inspector General                                                          Special Project

the event that TVA defaulted on the repayment        In response to opponents against the bill, Charles
terms.  Representative Russell V. Mach from          J. McCarthy, TVA’s General Counsel, adamantly
Washington said:                                     stated to the Committee:  

    I don’t think this provision that the                If you say to the Tennessee Valley Authority
    Government will not be responsible for               Board, finance capacity you need by
    these bond issues is worth the paper it is           issuing revenue bonds, but you have to
    written on for this reason:  The Tennessee           come to Congress and get what amounts
    Valley Authority is owned and managed                to an appropriation authorizing you to put
    by the Federal Government through three              in so many kilowatts before you can issue
    directors appointed by the President of              any bonds, you are taking that control
    the United States and accountable to                 over engineering and administration out
    him and confirmed by the Senate.  Under              of the TVA Board, and you are putting it in
    those conditions the Federal Government              Congress.  If that is where Congress wants
    is certainly going to be responsible and             it, that is one thing; but if Congress is going
    honorbound to pay these bonds if there is            to exercise that type of control, then TVA
    any deficit.                                         cannot operate a power system. . . . If you
                                                         are not going to give the TVA Board the tools
Mr. Jensen from Iowa said:                               to do the job, then in the name of Heaven
                                                         take TVA and sell it to the power companies.  
    It is also an attempt to create a hydraheaded        Don’t try to make the Board members do the
    entity that would have a primary obligation to       job with one arm tied behind their backs.
    the bondholders and a secondary obligation
    to the American people.  Its control would       Dissension continued during the June 1959
    rest in the hands of three men not elected by    hearings before the Senate Committee on Public
    the people, who in effect have more power        Works when General Accounting Office assistant
    to control the destinies and welfare of the      director E.W. Muhonen testified that:
    region within which the TVA operates than do
    the Governors of the States involved.  The           . . . It is basically undesirable to amend the
    proposed revenue bond method of obtaining            TVA Act of 1933 in order to authorize the
    funds for TVA, bonds without the full faith          TVA to issue its own obligations to the public
    and credit of the Federal Government                 for the purpose of obtaining funds to finance
    back of them, is something new in Federal            the construction or acquisition of facilities
    agency financing.  If permitted, it could be         for the generation or transmission of electric
    the beginning of widespread extension to             power.... We have considerable concern
    other agencies of the Federal Government.            over the possible effect of this provision,
    It is contrary to the provisions and intent          particularly as it relates to the charges for
    of the Constitution of the United States.  It        power and the application and use of net
    is no[t] in keeping with the principles and          power proceeds, for the reason that it could
    standards upon which this Nation was                 result in the bondholders having a strong
    founded.  I believe that Congress has the            control over the power operations of the
    right and the duty to pass annually upon the         TVA.  We believe such control would not be
    financing of the Federal Government and              desirable in view of TVA’s status as a wholly
    its various agencies.  This right is inherent        owned Government agency and the fact that
    in the Constitution that provides that “No           about half of its power output is presently
    money shall be drawn from the Treasury, but          sold to the U.S. Government.  
    in consequence of appropriations made by
    law. . .                                         To justify TVA’s position, TVA Board Chairman
                                                     Herbert D. Vogel testified that the proposed $750

Special Project 2009-13007-01                                                                        34
Office of the Inspector General                                                             Special Project

million self-financing provision would provide TVA
with a—

     [d]egree of flexibility in carrying on our
     operations, a degree of flexibility that is
     reasonably commensurate with that which
     people conducting any good business would
     be expected to have.  We want to be able
     to take advantage of a favorable money
     market, of a favorable materials market.  We
     want, in other words, to do the most efficient
     and effective job possible to carry out the
     purposes of the Congress as stated in the
     provision that we create or generate power
     at the lowest possible cost.  

Finally, Senator John Sparkman from Alabama,
in support of the proposed bill, stated at the June                    Increases in TVA’s
1959 hearings:                                                    Self-Financing Debt Ceiling

     The Government and the power consumers             Since establishing TVA’s self-financing status in
     of the valley have invested more than              1959, which authorized $750 million in “revolving”
     $1.5 billion in TVA.  If this investment is to     borrowing authority, Congress has increased the
     be properly safeguarded, the managers              TVA debt ceiling four times between 1966 and
     of the system must have the authority to           1979, from $750 million to its present limit at $30
     decide and act quickly.  In TVA financing,         billion (see Table 9).
     the freedom to act quickly at times when
     equipment and materials may be available                       Table 9. Increases in TVA
     at favorable prices often would enable                          debt ceiling, 1959-2010
     the Board to make savings not otherwise
     possible.  It would also offer the great                Year          Debt Ceiling       Increase
     advantage of timing bond issues more                Prior to 1959          $0               $0
     advantageously in relation to the money
                                                             1959          $750 million     $750 million
     market.
                                                             1966          $1.75 billion      $1 billion
During the hearing, TVA testified that the $750              1970            $5 billion     $3.25 billion
million would cover approximately four to five               1975           $15 billion      $10 billion
years of construction to meet growing demand,                1979           $30 billion      $15 billion
based on an estimated nonfederal use growth                 Present         $30 billion          $0
rate of 12 percent.  At the end of the four- to five-
year period, TVA stated that it would likely need       Details of each ceiling increase are provided in
to return to Congress to request an additional          the following pages.
increase to its debt ceiling.
                                                                   1966: Additional Bond
                                                                 Borrowing Authority Granted

                                                        The 1960s were years of unprecedented
                                                        economic growth in the TVA region.  Farms and


Special Project 2009-13007-01                                                                               35
Office of the Inspector General                                                                      Special Project

forests were in better shape than they had been                  increase would be requested at that time.
in generations.  Electricity rates were among the                The president of the National Coal Association
nation’s lowest and stayed low as TVA brought                    opposed the bill, urging Congress to cancel it,
larger, more efficient generating units into                     and stated:
service.  Expecting the region’s electric power
needs to continue to grow, TVA began building                        If TVA uses any part of that amount or
nuclear plants as a new source of economical                         any revenues from power to construct any
power.  During this decade, TVA began                                additional atomic power plants (other than
construction on two steam plants, completed                          the one recently announced), unless and
construction on two steam plants, and started                        until the AEC [Atomic Energy Commission]
construction on the Browns Ferry and Sequoyah                        shall find and proclaim that additional
Nuclear Plants.                                                      supplies of low-cost uranium...have been
                                                                     discovered in quantities sufficient to supply
                                                                     the plant lifetime needs of atomic power
                                                                     plants projected to be placed in operation in
                                                                     the next 20 years.  

                                                                 He stated that support of TVA’s nuclear program
                                                                 would accentuate “the problems of Appalachia
                                                                 while at the same time depriving high-cost fuel
                                                                 areas of an opportunity to reduce power-cost
                                                                 differentials.”

                                                                            1970: TVA’s Debt Ceiling
                                                                             Increased to $5 Billion
                                                                             (Public Law No 91-446)

                                                                 Continued growth in the area prompted TVA
                                                                 to request an additional increase to its bond
Consistent with TVA’s anticipation of further                    borrowing authority in 1970.  TVA Chairman
growth, in 1966, approximately seven years                       Aubrey J. Wagner testified at the June 1970
after the original debt ceiling was established,                 hearing that TVA had 10 million kilowatts of
Congress approved an increase in TVA’s bond                      additional generating capacity under construction,
borrowing authority from $750 million to $1.75                   which included—
billion36  through Public Law No. 89-537.  During
the two congressional hearings that took place                       Three nuclear units of 1,150 megawatts
before the bill’s passage, TVA explained that                        each at our Browns Ferry plant near Athens,
it needed the increase for additional capacity                       Ala.; two coal-fired units of 1,300 megawatts
necessary to meet the area’s continued growth                        each at our new Cumberland plant west of
rate of 7 to 8 percent a year in residential,                        Nashville; two additional nuclear units of
commercial, and industrial establishments.  TVA                      1,220 megawatts each at the Sequoyah
Chairman Aubrey J. Wagner stated that the $1                         site north of Chattanooga; 16 gas turbine
billion increase would allow TVA to meet the                         units having a total of 350 megawatts to be
power needs of the area for the next six to seven                    installed in the Allen plant at Memphis; and
years, implying that an additional debt ceiling                      a 1,350 megawatt pump storage plant at
                                                                     Raccoon Mountain west of Chattanooga.
36
       Interestingly, another bill (introduced by Senator Ross
       Bass from Tennessee) discussed during the hearings
       proposed to remove the bond ceiling limitation in its     Although the administration and the Bureau of
       entirety.                                                 the Budget both recommended an increase to

Special Project 2009-13007-01                                                                                      36
Office of the Inspector General                                                            Special Project

the ceiling of only $3.5 billion, the TVA Chairman    projected to increase from 112 billion kilowatts-
confirmed that such an increase would provide         hours to about 220 billion kilowatt-hours.”  He
TVA with only 2 to 4½ years of funding.  James        also emphasized the dramatic increase in
E. Watson, TVA’s manager of power, also stated        construction lead time for nuclear-fueled steam
that the lead time on projects was on average         plants compared with coal-fired steam plants.  
about six years and more bonding authority was        Specifically, in the 1960s, nuclear-fueled steam
needed to meet future capacity forecasts.             plants required nine- to ten-year lead times,
                                                      compared with three to four years for coal-fired
Some individuals at the June 1970 hearing             steam plants.  At the time of the hearings, TVA
expressed concern about how the additional            stated that the additional capacity on order
borrowing authority would be used.  For example,      or under construction included 4 combustion
Representative Don Clausen from California            turbines, 4 pumped-storage hydro units for
asked how much would be spent to control heat         peaking purposes, and 15 nuclear-fueled units.
discharge and stack gases and how that would
affect the cost of power.  Chairman Wagner
replied that it could add 20 percent to the cost of
electricity.  He also stated that there had been no
problems with thermal pollution on the Tennessee
River, although one plant on the Green River did
have some thermal discharge problems that were
addressed through the installation of cooling
towers.  Environmental concerns resurfaced
during the August 1970 hearings when Senator
Howard H. Baker from Tennessee asked whether
TVA had any policies on restraint or conditions
on the nature of coal stripping operations as
a condition to accepting the coal.  The TVA
Chairman responded that TVA contracts with coal       One individual speaking on behalf of the
producers that supplied strip-mine coal required      Vanderbilt University Energy Study Group stated,
that the land be reclaimed.                           “[n]uclear powerplants are, by nature, highly
                                                      capital intensive, much more so than fossil fuel
In the end, Congress authorized an increase           plants of similar size, and any major nuclear
in TVA’s debt ceiling to $5 billion.  According to    construction program constitutes a significant
testimony from Alabama representative Walter          drain on the domestic capital resources of the
Flowers, the $5 billion ceiling would enable TVA      United States.”  He also testified:
to operate for another five to seven years.
                                                          It is my opinion that TVA’s proposed
         1975: Congress Triples TVA’s                     expansion is not only unnecessary but
           Debt Ceiling to $15 Billion                    unwise, because it is based on predictions
            (Public Law No 94-139)                        of future peak load requirements that are
                                                          outdated and inaccurate at best.  The kindest
TVA appeared before Congress again in                     word I can find for TVA’s demand projections
September 1975 to request a $10 billion increase          is “chaotic”. . . . It is my personal conviction
to its debt ceiling, testifying that 21.2 million         that TVA has been mismanaged into the
kilowatts of capacity was under construction              nuclear corner.  A couple of very single-
or on order to serve the expected growth in               minded administrators have strongly, but not
power loads.  TVA’s Manager of Power James                irrevocably, committed TVA to the nuclear
Watson stated, “[o]ver the next 10 years the total        option while doing little more than paying lip
electrical energy requirements of the region are

Special Project 2009-13007-01                                                                             37
Office of the Inspector General                                                                 Special Project

     service to such intrinsically attractive options      in its service area, so in 1979 it requested an
     as energy conservation and solar energy.              additional increase of $15 billion to its debt
                                                           ceiling.  TVA stated that it needed “the authority
Another individual who represented the East                to borrow funds to provide for the electrical
Tennessee Energy Group and Save Our                        needs of a growing region as well as to support
Cumberland Mountains stated:                               energy conservation efforts. . . .”  In addition,
                                                           representatives for TVA testified that—
     [A]lthough recent events have shown that
     the selection of board members can be a                   [A] $15 billion increase in borrowing authority
     vital process, congressional oversight of                 would provide the authority to make the
     TVA activities has not been as close as                   commitments required in the next 5 years to
     it could have been.  TVA’s congressional                  insure [sic] an adequate long range supply
     appropriation represents only a fraction of               of electricity. . . . The legislative history of
     its total budget and TVA’s regional character             TVA’s requests has been one of seeking
     seems to weaken the interest of Congress                  adequate borrowing authority to fully finance
     as a whole in overseeing its activities.  As              commitments contemplated in the following 5
     citizens’ groups which are interested in                  years for the power programs.  The request
     improving TVA’ accountability to the public,              for a $15 billion increase in borrowing
     we urge you not to give up any of the small               authority would be adequate to fully finance
     measure of control that presently exists.                 commitments made through fiscal year 1985.  
                                                               These commitments would include all of the
He further stated:                                             generating facilities contemplated for 1995
                                                               which, because of the 10- to 12-year lead-
     [I]n considering such a massive increase                  time for construction, would require action
     in the agency’s bonding authority, you are                during the coming 5 years.  
     in the position of a corporate director being
     asked to sign 10 or 15 years of blank checks.         During the hearings, Senator James Sasser from
     It is just not good business . . . [TVA has] an       Tennessee questioned TVA’s growth projections
     enormous influence on private bond markets            based on a General Accounting Office report.  
     and would affect the availability of capital for      According to the senator, the General Accounting
     other energy-related purposes.  Congress              Office’s high forecast was 17 percent lower than
     should maintain its supervision of TVA’s              TVA’s own forecast, and its low projection of peak
     bonding authority so it can make sure that            demand was 40 percent lower than TVA’s own
     capital resources are put to the most efficient       projection.
     possible use.
                                                           Ratepayers were also present at the hearings,
Based on the testimonies provided at the                   testifying about their lack of involvement
hearings in 1975, Congress authorized the $10              in decisions that directly affected them.  A
billion increase in TVA’s debt ceiling to $15 billion.     representative from the Tennessee Valley Energy
TVA testified that “additional borrowing authority         Coalition and the National Council of Senior
beyond the presently sought $10 billion increase           Citizens stated:
will be required within the next 5 years.”
                                                               [T]he ratepayers of the Tennessee Valley
            1979: TVA’s Debt Ceiling                           will bear the brunt of any decision made
             Increases to $30 Billion                          about TVA’s debt ceiling, and thus should
              (Public Law No 96-97)                            have every legitimate right to be heard
                                                               during these discussions on that decision.
TVA projected growth in electricity consumption                . . . Ratepayers have not been privy to any


Special Project 2009-13007-01                                                                                38
Office of the Inspector General                                                             Special Project

    of these TVA decisions and so our opinion           Financial Problems Raise Questions About Long-
    on these matters has not been heard by              Term Viability (95-134), stated:
    TVA nor will TVA probably ever ask for
    it. . . .TVA was established as a regional              TVA made its commitment to nuclear power
    entity to develop the resources of the                  in the late 1960s and early 1970s, when
    Tennessee Valley.  TVA must be encouraged               power sales were growing at a steady rate
    to remember its historic commitment to                  and were expected to double every 10 years.
    the welfare of the valley citizens.  We                 In the Tennessee Valley, the number of
    oppose its recent trend toward considering              electricity customers rose to over 2 million
    itself an agency with primarily a national              in the 1960s and about 30 percent of all
    responsibility.  Such an orientation is new to          the homes were heated with electricity. By
    TVA and very dangerous and expensive for                1970, TVA customers used nearly twice as
    its ratepayers.                                         much electricity as the national average.  At
                                                            that time, TVA was experiencing an annual
In addition, the representative also:                       growth rate of about 8 percent in demand
                                                            for electricity, and TVA’s forecasts through
    [urged the] committee to decide that the                the mid-1970s were showing continued
    TVA debt ceiling not be raised any further              high growth in demand.  TVA believed,
    and that it suggest to TVA it consider                  along with many in the utility industry,
    delay of Yellow Creek, Phipps Bend, and                 that new generating capacity was needed
    Hartsville.  It ought to better manage its fiscal       to satisfy its forecast demand. To meet
    resources.  Further, we urge this committee             that need and lessen the environmental
    to encourage TVA to integrate conservation,             problems associated with its coal plants,
    solar energy, load management, and rate                 TVA embarked on a highly ambitious nuclear
    restructure into its power projections and to           power plant construction program. In 1966,
    demonstrate to the Nation, in its role as a             TVA announced plans to build 17 nuclear
    yardstick, how these options can reduce the             units at seven sites in Tennessee, Alabama,
    need for electricity.                                   and Mississippi.  In 1967, it started building
                                                            the nation’s largest nuclear power facility—
                                                            Browns Ferry in north Alabama.  However,
                                                            instead of increasing, electricity consumption
                                                            declined in the mid-1970s following the 1973
                                                            energy crisis and again in the late 1970s and
                                                            1980s as a result of higher energy costs and
                                                            lower economic growth.

                                                        As noted above, because of federal budgetary
                                                        principles, TVA’s expenditure of increased
                                                        borrowings is presented in the budget as being
                                                        equivalent to TVA’s receipt and expenditure of
                                                        congressional appropriations and would cause
Although TVA’s $15 billion debt ceiling was             an equal increase in the overall federal budget
ultimately granted, lower-than-expected demand          deficit that currently exists. However, in response
led the TVA’s aggressive nuclear program to be          to our draft, TVA management stated that during
scaled back in the 1980s, and since 1979, TVA           the 1979 hearings, there was an EPW Committee
has not requested additional borrowing authority        report that recommended TVA’s borrowing
from Congress.  The General Accounting Office           authority be treated neither as budget authority
report TENNESSEE VALLEY AUTHORITY,                      nor outlays in the federal budget and recognized


Special Project 2009-13007-01                                                                           39
Office of the Inspector General                                                            Special Project

that TVA’s borrowing should not contribute to
the federal budget deficit. According to TVA, the
report states:

    The committee report, includes, as does
    the President’s budget, this item of $15
    billion for increased debt authority for the
    Tennessee Valley Authority. These funds
    are not, however, generated through the
    general treasury and do not affect fiscal
    policy. The Tennessee Valley Authority Act,
    section 15(d), specifically provides that
    the debt obligations of TVA shall not be or
    become obligations of or guaranteed by the
                                                     As part of its nonpower program, TVA provides
    United States. TVA’s debt is secured solely
                                                     various public services, including management
    by revenues from the sale of power. The
                                                     of the natural resources of the Valley for the
    committee has included the amount here in
                                                     benefit of the region and the nation.  Specifically,
    order to be consistent with the administrative
                                                     TVA manages the Tennessee River system and
    and congressional budget processes, but
                                                     associated public lands to reduce flood damage,
    renews its request (as made in 1975-Senate
                                                     maintain navigation, support power production
    Report No. 94-461) that in the future this
                                                     and recreational uses, improve water quality and
    item be carried not as “budget authority”, but
                                                     supply, and protect shoreline resources.
    as a separate item in a manner consistent
    with the Tennessee Valley Authority Act, as
                                                     Until FY 2000, TVA’s nonpower program was
    amended.
                                                     historically funded through federal appropriations.  
                                                     However, in June 1997, the U.S. House of
   2000: The Elimination of Appropriations
                                                     Representatives met to discuss the future of
    Funding of TVA’s Nonpower Program
                                                     TVA’s nonpower programs, including the issue
                                                     of how it should be funded and who should be
In addition to its core business of electricity
                                                     responsible for these stewardship activities
generation (“power program”), TVA also performs
                                                     undertaken by TVA.  Earlier in that year, TVA
stewardship activities related to management
                                                     Chairman Craven Crowell “had suggested
of the Tennessee River system (“nonpower
                                                     that the Congress eliminate the $106 million
program”).  Specifically, the TVA Act states,
                                                     appropriation that support[ed] TVA’s non-power
among other things, that TVA was established—
                                                     program.”  Representative Sherwood L. Boehlert
                                                     from New York stated:  
    To improve the navigability and to provide for
    the flood control of the Tennessee River; to
                                                         …the primary focus of today’s hearing will
    provide for reforestation and the proper use
                                                         be on the various proposals that have been
    of marginal lands in the Tennessee Valley;
                                                         forwarded to phase out much of TVA’s
    to provide for the agricultural and industrial
                                                         involvement in non-power programs such
    development of said valley; to provide for
                                                         as flood control, recreation, and navigation.  
    the national defense by the creation of a
                                                         Though I believe that TVA’s role in these
    corporation for the operation of Government
                                                         programs will change, I also believe that
    properties at or near Muscle Shoals in the
                                                         the Federal Government must continue to
    State of Alabama, and for other purposes.
                                                         support and manage critical flood control,
                                                         navigation, and recreational activities within
                                                         the Tennessee Valley.  The elimination of


Special Project 2009-13007-01                                                                          40
Office of the Inspector General                                                                      Special Project

     TVA’s appropriation for non-power activities                that, frankly, I think, in the opinion of the
     is an issue that is on the table and one that               majority of the TVA Caucus members,
     must be considered carefully.  However,                     is not acceptable in that it eliminates
     the termination of important navigation and                 funding from the Federal Government
     flood control programs is not on the table.                 without clearly defining who then would
     There is a very strong Federal interest in                  pick up those responsibilities for land and
     flood prevention and efficient navigation                   water stewardship, who would manage
     that we cannot abandon.  TVA’s role in                      the Land Between the Lakes37 —these
     these activities will change, but the Federal               issues that are absolutely critical to the
     Government’s commitment to these activities                 people of the seven-State region…The
     will remain.                                                Federal Government owes it to the people
                                                                 to maintain that, as they do in other parts
Robert A. Borski, a representative from                          of the country, so there is no savings to
Pennsylvania, also stated:                                       eliminate these essential programs and
                                                                 funding.
     Some have suggested that TVA should
     narrow its focus to the core business of          Another representative from Tennessee, Ed
     power generation to become America’s              Bryant, stated:  
     power company.  Others disagree.  They
     point out that TVA’s non-power program                    I realize that most of us here today are
     of navigation, flood control, economic                    committed to fiscal prudence and where
     development, and resource conservation                    we can, to reduce the cost and the size
     are essential to the original mission of the              of the Federal Government.  But where
     agency.  Unless and until Congress amends                 Land Between the Lakes is concerned, it
     TVA’s organic act, TVA must continue to fulfill           seems to me that there’s not a lot of room
     its Congressional mandate of providing non-               for savings.  I feel the Federal Government
     power program services to the people of the               has an obligation to the public to continue
     Tennessee Valley.                                         its role at the Land Between the Lakes…I
                                                               very strongly support the TVA’s management
                                                               style of this area in that they have adopted
                                                               a multi-use purpose so that it’s open to the
                                                               public for many, many uses.  Certainly, my
                                                               constituency—and I know Congressman
                                                               Whitfield’s constituency in Kentucky—very
                                                               much support this management plan, and I
                                                               would hope that my other colleagues on both
                                                               sides of the aisle would agree with me on
                                                               this point…For the record, I am comfortable
                                                               with TVA’s style, as I said earlier, and am
                                                               somewhat reluctant, as Congressman Wamp
                                                               has mentioned, to pass these responsibilities
Some individuals participating in the hearing          37
                                                              The Land Between the Lakes National Recreation Area
were against Chairman Crowell’s proposal                      is a United States National Recreation Area located in
to eliminate appropriations funding for TVA’s                 Kentucky and Tennessee between Lake Barkley and
nonpower program.  For example, Tennessee                     Kentucky Lake.  The area was designated a national
                                                              recreation area by President John F. Kennedy in 1963.  
Representative Zach Wamp stated:                              The recreation area was originally managed by the TVA,
                                                              but jurisdiction has since been transferred, effective
     …Chairman Crowell made a proposal                        October 1, 1999, to the United States’ Department of
                                                              Agriculture’s Forest Service.

Special Project 2009-13007-01                                                                                      41
Office of the Inspector General                                                               Special Project

    on to other Government agencies all at once,
    because the Land Between the Lakes is not
    going to go away.




                                                        Perhaps the harshest testimony against
                                                        Chairman Crowell’s proposal was provided
                                                        by Bob Clement, another representative from
Another Tennessee representative, Bart Gordon,
                                                        Tennessee:
offered similar testimony:
                                                            Early this year, after consultation with OMB
    …over the years TVA has done many
                                                            and no consultation with the Congressional
    positive things for our region but has also
                                                            delegation, Chairman Crowell announced
    made a lot of mistakes along the way.  I think
                                                            that TVA favors cutting off its appropriated
    that the Board is moving in a good direction
                                                            funding after fiscal year 1998 for the non-
    now; however, I think a mistake—and one
                                                            power programs.  Chairman Crowell’s
    of those mistakes was the recommendation
                                                            proposal opens up Pandora’s Box to
    to do away with the non-power revenue
                                                            much broader and challenging issues than
    appropriation…As my friend Zach Wamp
                                                            merely saving TVA’s appropriated dollars.
    says, it was really built on a false premise to
                                                            It will now be TVA’s task to defend itself
    think that doing away with this appropriation
                                                            against those who will say, “If Tennessee
    means that the responsibilities of water
                                                            is now just a Federal utility, why shouldn’t
    management, flood control, stewardship of
                                                            it be privatized?”  Even that one would be
    the lakes, the rivers, and the public lands—it
                                                            a decent question to ask if it were not for
    doesn’t go away.  It’s still there.  It’s still a
                                                            the $27 billion debt which will keep it from
    public responsibility, whether it’s done by the
                                                            competing with other private investor-owned
    Corps of Engineers or by the TVA.
                                                            utilities in the country.  If Chairman Crowell’s
                                                            real agenda is to make TVA competitive in
                                                            a deregulated utilities market by chopping
                                                            off its non-power programs, I question the
                                                            wisdom of the proposal.  I do not believe
                                                            there is a direct link between TVA’s ability
                                                            to compete and its sustainment of the non-
                                                            power programs.




Special Project 2009-13007-01                                                                             42
Office of the Inspector General                                                            Special Project

                                                          overseeing your rates, that you would make
                                                          those decisions and you would be totally in
                                                          charge with no oversight at all.

                                                      The TVA Chairman responded:

                                                          …I’m sitting right here right now in front of
                                                          this committee in an oversight hearing.  I
                                                          certainly don’t know where anybody could
                                                          have gotten that idea.  I mean, we are
                                                          owned 100 percent by the U.S. Government.  
                                                          This is our oversight committee.  We have
                                                          an oversight committee in the Senate.  We
                                                          are appointed by the President…My whole
Clement also questioned the motives surrounding           direction since I’ve been Chairman at TVA is
the TVA Board’s proposal.  Specifically, he stated:       try to prepare TVA for deregulation into the
                                                          next century…This proposal was all part of
     Chairman Crowell and Director [William H.]           the preparation for the future.
     Kennoy and Director [Johnny H.] Hayes, I
     know what a tough job you’ve got.  I was         Other participants believed that TVA should
     there, and a lot of you know I’m a former        continue to take on stewardship activities without
     TVA Board member, and I know it’s a tough        the benefit of appropriations and internalize the
     job, but I’ll say, in recent months I’ve been    cost of those activities.  Sherman Boehlert, a
     awfully disappointed, particularly when I feel   representative from New York, stated:
     like I got the shaft and a lot of other people
     did, Chairman Crowell, when you went                 …other witnesses testifying today have
     around us and went directly to the Office            suggested in their written testimony that
     of Management and Budget, didn’t consult             merely divesting TVA of its non-power
     with any of us, and some would say sold              programs will not adequately address the
     us down the river in terms of going from             competitiveness concerns of shareholder-
     $106 million a year in appropriated funding          owned utilities and will not end the
     dollars for important programs such as flood         perception that TVA is subsidized.  They
     control and navigation and recreation and            believe that the only way to level the playing
     environmental protection and operation               field is to make TVA internalize the cost of its
     of Land Between the Lakes—and a lot of               non-power programs, as they assert other
     those people were forced off their property          power companies already do…As we look at
     to create that beautiful area, and then TVA          the history of the whole program, we applaud
     reneged on its commitments from the past.            FDR [Franklin Delano Roosevelt] for what
     But I have to ask you, you know, a lot of            he did, his foresight, but let me tell you, you
     people think there was an ulterior motive,           guys are doing quite well down in Tennessee
     that you didn’t want to be—you felt like if          these days, and in the northeast we’re
     you could zero out appropriated dollars and          hurting somewhat, and one of the reasons
     get away with it, that you wouldn’t have to          we’re hurting is because of the differential in
     have any oversight authority any more over           power cost, and one of the reasons why we
     TVA.  TVA directors could go their merry way         have a differential in power cost is because
     and make whatever decisions they want to             I think a clear case can be made that you
     make, since you don’t have a public service          guys get subsidies and we don’t.
     commission or public utilities commission
                                                       

Special Project 2009-13007-01                                                                          43
Office of the Inspector General                                                             Special Project

Another representative from Michigan, Vernon J.        to refinance $3.2 billion of its debt, saving TVA
Ehlers, voiced similar concerns:                       well over a billion dollars in interest payments
                                                       over the next decade.  According to Chairman
    …it just seems to me that the people of that       Crowell, this savings put TVA “in position to fund
    area are getting substantial benefit from          its essential river and land stewardship activities
    the operation of the TVA.  They’re getting         without appropriated funds.”  
    relatively low electricity rates.  They’re
    getting a lot of other public services.  It
    concerns me to have taxpayers from
    the rest of the Nation paying for the
    ancillary activities when, in fact, that area
    is benefitting a great deal from having
    the project there.  If statutory change is
    necessary to allow them to pay for the
    ancillary activities out of the rate revenues, I
    think that would be appropriate.




In October 1997, Congress passed legislation
that directed TVA to fund essential stewardship
activities related to its management of the
Tennessee River system and TVA properties
with power funds in the event that there were
insufficient appropriations or other available funds
to pay for such activities in any year. During FYs
1998 and 1999, TVA’s appropriated funding for
nonpower programs decreased to $70 million and
$50 million, respectively.  Beginning in FY 2000,
TVA paid for essential stewardship activities
primarily with power revenues.  The remainder
was funded through user fees and other forms
of revenue derived in connection with those
activities.  In addition, in a speech delivered in
March 1999, Chairman Crowell stated that the
Congress and the Administration allowed TVA

Special Project 2009-13007-01                                                                           44
Office of the Inspector General                                                          Special Project

          TVA MANAGEMENT COMMENTS ON THE DRAFT REPORT
                     AND TVA OIG RESPONSE
TVA management provided a response to our draft (see Appendix B) that included clarification
items and additional information to underscore certain areas. We evaluated each comment with the
following dispositions:

  •	 Comment a: TVA management suggested inclusion of information related to the repayment of
     TVA’s original power system investment. We believe this is an important component of TVA’s
     overall financial management and further demonstrates its ability to repay its obligations. We
     have included this information in the “Background Observations” section.

  •  Comment b: TVA management provided examples of internal and external controls to mitigate
     the risk that bond issues do not exceed the debt ceiling. We included these controls in the
     Ramifications of Issuing Debt Above the Debt Ceiling section. However, we did not verify whether
     these controls are in place and operate effectively.

  •	 Comment c: TVA management stated that the FY 2012 President’s Budget specifically excluded
     alternative financing obligations, such as lease-leasebacks and prepayments, from being part
     of TVA’s statutory debt. As mentioned above, the statutory debt classification has historically
     been a controversial topic, and therefore we agree with TVA management that the current
     Administration’s stance on this subject be included in the report.

  •	 Comment d: Regarding the pension funding shortfall issue, TVA management stated that (1)
     TVA made an advance contribution of $1 billion in 2009 that fulfilled its obligations for FYs 2010
     through 2013, and (2) TVA’s Board of Directors approved a discretionary contribution of $270
     million for FY 2011 and delegated authority to the CEO to approve a discretionary contribution
     for FY 2012. We included both of these items in the Pension Funding Shortfall section. However,
     while these items may help to alleviate the pension funding issue, depending on market forces
     and benefit payments, additional funding may be necessary to achieve and maintain a healthy
     and solvent pension fund.

  •	 Comment e: TVA management stated that documents from the 1979 hearing to increase TVA’s
     debt ceiling to $30 billion revealed confidence in TVA’s plans. We acknowledge that there were
     supporters of the increase who believed in TVA’s future plans; hence, the passage of Public
     Law No. 96-97. Accordingly, we focused mainly on those individuals or groups that offered
     constructive criticism to provide examples of opposing views at that time. In addition, TVA
     management identified an Environment and Public Works Committee report that recommended
     that TVA’s borrowing authority be considered neither budget authority nor outlays in the federal
     budget and recognized that TVA’s borrowing should not count toward the federal deficit. We
     included the Environment and Public Works Committee recommendation in the “TVA’s History”
     section.




Special Project 2009-13007-01                                                                         45
Office of the Inspector General                                                                      Special Project



                              APPENDIX A
             A Timeline of TVA's History: 1933 Through 2010


                                                                   President Roosevelt signs the TVA Act
                                                        1933                  (May 18, 1933)
       Wilson Dam transferred from Army Corps of
                      Engineers                                      Construction begins on Norris Dam
                   (September 1933)                                            (October 1933)

      Construction of Pickwick Landing, Guntersville,               Construction begins on Wheeler Dam
        Chickamauga, and Hiwassee Dams begin                                  (November 1933)
                 (March 1935 – July 1936)
                                                                Norris, Wheeler, and Pickwick Landing Dams
       Construction begins on Kentucky and Watts                                 operational
           Bar Dams (July 1938 – July 1939)                               (July 1936 – June 1938)

                                                                Chickamauga and Hiwassee Dam operational
       Construction of Fort Loudoun and Cherokee
                                                                          (March – May 1940)
      Dams and Watts Bar Steam Plant begins (July –
                      August 1940)
                                                                  Construction on Fontana, South Holston,
                                                               Douglas, and Watauga Dams begins. Watts Bar
      Construction begins on Johnsonville, Widows              Steam Plant and Watts Bar, Cherokee, Douglas,
        Creek, Shawnee, Kingston, Colbert, John                   Appalachia, Fort Loudoun, Kentucky and
         Sevier, Gallatin and Allen Steam Plants.                        Fontana Dams operational
     Johnsonville, Widows Creek, Shawnee, Colbert,                     (January 1942 – January 1945)
         John Sevier and Gallatin Steam Plants
        operational (May 1949 – November 1956)                   TVA's self-financing status established and
                                                        1959     statutory borrowing authority is set at $750
      Allen Steam Plant operational and construction                                million
           starts on Paradise Steam Plant (May –
                      November 1959)
                                                                TVA issues its first power bonds (November
                                                                                     1960)
      Construction begins on Bull Run Steam Plant
      and Paradise Steam Plant is operational (April
                    1962 – May 1963)                             TVA's debt ceiling increases by $1 billion to
                                                                                 $1.75 billion
                                                        1966

                                                               TVA Board decides to build nuclear power plant
        Construction begins on Browns Ferry and
                                                                  at Browns Ferry in Alabama (June 1966)
        Sequoyah Nuclear Plants and Cumberland
          Steam Plant. Bull Run Steam Plant is
        operational (September 1966 – April 1969)

                                                        1970     TVA's debt ceiling is increased to $5 billion

     Construction begins on Watts Bar Nuclear Plant
       and Cumberland Steam Plant is operational
             (December 1972 – March 1973)

                                                               Browns Ferry Unit 1, TVA's first nuclear power
                                                                     unit, operational (August 1974)




Special Project 2009-13007-01                                                                                    46
Office of the Inspector General                                                                        Special Project




                                                          1975   TVA's debt ceiling is increased to $15 billion



    Browns Ferry Unit 2 operational (March 1975)                  Browns Ferry Unit 3 operational (March 1977)



                                                          1979     TVA's debt ceiling is increased to $30 billion

          Sequoyah Nuclear Plant Units 1 and 2
               operational (1981–1982)                              TVA stops construction on 2 reactors at
                                                                 Hartsville and 2 reactors at Phipps Bend (1982)

         TVA stops construction on 2 reactors at
      Hartsville and the twin-reactor at Yellow Creek
                                                                     Construction halted on construction of
                           (1984)
                                                                   Bellefonte Nuclear Plant Units 1 and 2 (1988)

     Capacity additions at Browns Ferry Unit 2 (1991)
                                                                  Capacity additions at Browns Ferry Unit 3 and
                                                                 Watts Bar Unit 1 (1995–1996) and Watts Bar Unit
                                                                       1 becomes operational (May 1996)
                                                          2000

                                                                     Gallatin Combustion Turbine (CT) 5-8,
     Consolidated Appropriations Act of 2005 signed
                                                                   Johnsonville CT 17-20, Kemper County CT,
      into law, which changed the structure of the
                                                                   Lagoon Creek CT operational (2000–2002)
     TVA Board from a three-person full-time Board
      to a nine-person part-time Board (December
                         2004)
                                                                    TVA restarts Browns Ferry Nuclear Unit 1
                                                                                   (May 2007)
      TVA Board decides to complete construction of
         Watts Bar Nuclear Unit 2 (August 2007)

                                                                  Capacity additions at Browns Ferry Unit 1 and
     Decision to construct 880-megawatt combined-                 Marshall County CT, Gleason CT, Brownsville
      cycle gas plant in northeastern Tennessee is                CT and Southaven CT operational (2007–2008)
     adjacent to the existing John Sevier Fossil Plant
       near Rogersville, Tennessee (August 2009)


          TVA Board of Directors approved the                     Capacity additions at Lagoon Creek CT (2010)
        expenditure of $248 million for additional
      engineering, design, and licensing activities as
        well as the procurement of long lead time
          components for the partially complete
             Bellefonte Unit 1 (August 2010)                     Decision to complete construction of Bellefonte
                                                                          Nuclear Unit 1 (August 2011)

      Based on draft information received from TVA,
      TVA could require $5.6 billion in capital funding
      to meet Clear Air Act regulations (2010 – 2028)




Special Project 2009-13007-01                                                                                       47
Office of the Inspector General                Special Project


                                  APPENDIX B




Special Project 2009-13007-01                              48
Office of the Inspector General   Special Project




Special Project 2009-13007-01                 49
                VALLEY AUT
            SEE               H
          ES Efficiency - Eff




                                    O
             y-               ec
    NN




                                     RI
            m                   t
  TE




                                                  Tennesee Valley Authority

                                       TY
                               ive
      no




                                        nes
Eco




                                           s
                                               Office of the Inspector General
OFF




                                          AL
                                          ER
 IC




      O           1985               EN
  E




          FT                          G
               HE                R
                    INSP E   CTO




                                          400 West Summit Hill Drive
                                          Knoxville, Tennesee 37902
                                                  oig.tva.gov




                                                                       Printed on 100% recycled paper
